<html>
<title> - THE SCIENCE AND STANDARDS OF FORENSICS</title>
<body><pre>[Senate Hearing 112-671]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 112-671
 
                 THE SCIENCE AND STANDARDS OF FORENSICS 

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 28, 2012

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

77-701 PDF                       WASHINGTON : 2012 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 




       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             KAY BAILEY HUTCHISON, Texas, 
JOHN F. KERRY, Massachusetts             Ranking
BARBARA BOXER, California            OLYMPIA J. SNOWE, Maine
BILL NELSON, Florida                 JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           JOHN THUNE, South Dakota
FRANK R. LAUTENBERG, New Jersey      ROGER F. WICKER, Mississippi
MARK PRYOR, Arkansas                 JOHNNY ISAKSON, Georgia
CLAIRE McCASKILL, Missouri           ROY BLUNT, Missouri
AMY KLOBUCHAR, Minnesota             JOHN BOOZMAN, Arkansas
TOM UDALL, New Mexico                PATRICK J. TOOMEY, Pennsylvania
MARK WARNER, Virginia                MARCO RUBIO, Florida
MARK BEGICH, Alaska                  KELLY AYOTTE, New Hampshire
                                     DEAN HELLER, Nevada
                    Ellen L. Doneski, Staff Director
                   James Reid, Deputy Staff Director
                     John Williams, General Counsel
                Todd Bertoson, Republican Staff Director
           Jarrod Thompson, Republican Deputy Staff Director
   Rebecca Seidel, Republican General Counsel and Chief Investigator



                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 28, 2012...................................     1
Statement of Senator Rockefeller.................................     1
Statement of Senator Boozman.....................................     3
Statement of Senator Udall.......................................    28

                               Witnesses

Eric S. Lander, Ph.D., President and Founding Director, Broad 
  Institute of Harvard and MIT; Professor of Biology, MIT; 
  Professor of Systems Biology, Harvard Medical School; Co-chair, 
  President's Council of Advisors on Science and Technology 
  (PCAST)........................................................     5
    Prepared statement...........................................     9
Patrick D. Gallagher, Ph.D., Under Secretary of Commerce for 
  Standards and Technology, U.S. Department of Commerce..........    12
    Prepared statement...........................................    14
Dr. Subra Suresh, Director, National Science Foundation..........    16
    Prepared statement...........................................    18

                                Appendix

National District Attorneys Association (NDAA), prepared 
  statement......................................................    39
Response to written questions submitted to Eric S. Lander, Ph.D. 
  by:
    Hon. John D. Rockefeller IV..................................    40
    Hon. Amy Klobuchar...........................................    42
    Hon. John Boozman............................................    42
Response to written questions submitted to Dr. Subra Suresh by:
    Hon. John D. Rockefeller IV..................................    43
    Hon. John Boozman............................................    45
Response to written questions submitted to Patrick D. Gallagher, 
  Ph.D. by:
    Hon. John D. Rockefeller IV..................................    47
    Hon. John Boozman............................................    48


                 THE SCIENCE AND STANDARDS OF FORENSICS

                              ----------                              


                       WEDNESDAY, MARCH 28, 2012

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:35 p.m. in Room 
SR-253, Russell Senate Office Building, Hon. John D. 
Rockefeller IV, Chairman of the Committee, presiding.

       OPENING STATEMENT OF HON. JOHN D. ROCKEFELLER IV, 
                U.S. SENATOR FROM WEST VIRGINIA

    The Chairman. Welcome, everyone. You don't see a lot of 
bodies around here, because we only allowed the two most 
intelligent, insightful members to be invited to this committee 
hearing, and so if you believe that, it'll be an easy hearing.
    I don't get a chance very often to say that the Commerce 
Committee is working on truth and justice, but that's what 
we're doing today, and it's about using more science in our 
criminal justice system. It's about creating standards that 
judges, prosecutors, defense lawyers, law enforcement people 
and juries can trust.
    This is the second hearing we've held. We had John Grisham 
at our first hearing, but what was interesting, and, Senator 
Boozman, you may remember this, is that--well, I'll get to 
that, because there was a more interesting witness who was 
here.
    And we heard that there were many disciplines in forensic 
science, like ballistics, bite marks, even fingerprint 
analysis, and they're not based on peer reviewed science. And 
we heard that the forensic science community does not have the 
resources or sometimes the desire to conduct this type of 
research, and maybe it's just the money, but that's what--we 
can talk about all those things.
    And most disturbing, and we heard that many forensic 
scientist disciplines lack what our witnesses call a culture of 
science, at the last hearing they said that. Too often, 
therefore, the conclusions that are reached are subjective and 
lack scientific validation and standards, and, thus, forensics 
comes under question.
    Without properly analyzing evidence, it's hard for law 
enforcement people to apprehend, prosecute criminals, and it's 
more likely that our system will wrongfully convict people who 
are, in fact, innocent.
    What's clear at this point is that we need more research 
and better standards in forensic science. Easily said, but 
you've got to have the money to do it. And to be credible, this 
work needs to be performed by scientific experts outside of the 
law enforcement culture.
    Today, we're going to talk with three leading scientists--I 
mean, you're all rock stars, even though you're not best 
selling authors. If you are, raise your hand and I'll duly 
recognize you. This is about leveraging the expertise of our 
Federal science agencies to force improvement in this process.
    If our shared goal is to build a culture of science in the 
forensic science disciplines, the National Institute of 
Standards and Technology and the National Science Foundation 
are the two Federal agencies we will look to for guidance and 
for expertise. These two agencies will have become a link 
between the forensic science and the broader scientific 
research community.
    NIST's work focuses on measurement science and standards of 
forensics, forensic science, the standards and the measurement. 
NIST scientists have decades of collaboration under their 
belts, with the FBI, for example, to improve their hardware and 
computer programs for fingerprinting screening and all kinds of 
things.
    The FBI Criminal Justice Information Service--I love these 
things, FBI CJIS--which is based in West Virginia, houses the 
world's largest biometric database as part of the integrated 
automatic fingerprint identification system. You wonder why 
more people don't pursue science?
    The FBI CJIS also hosts the Department of Defense's 
biometrics database that is fully interoperable with the FBI 
database and includes a broader array of biometrics data 
including fingerprinting, iris, palm, facial, voice and DNA.
    This kind of collaboration between our science, those who 
practice it, and our criminal justice system will just have to 
grow and deepen. You know, the culture of science --many other 
cultures get in the way, too----jurisdictional, who's on top, 
who's in charge, all the rest of it, which is just classic 
behavior in our country and I guess everywhere in the world.
    But we have to put our evidence standards on a solid 
scientific footing. That's the point. Putting more science into 
forensic science is one of the Commerce Committee's top 
priorities this year. It is for me and I know it is for Senator 
Boozman. I'm working on legislation that I hope to introduce in 
April that will apply to this.
    My questions today will focus on the best way to apply the 
Federal Government's scientific knowledge and the resources to 
this problem, and I look forward to hearing your testimony, and 
I'm going to introduce you individually.
    But I want to call on, now, Senator Boozman and point out 
that he is just--it's just like he has entered graduate school 
again. He has taken up the subject of forensic science on his 
own without any pushing, except from inside of his brain or 
soul, and he's interviewing everybody in sight and has kinds of 
group meetings and fora and things that are way beyond my 
capacity to understand. So I'm really proud that he's here, 
that he's our Ranking Member, and of him in general.

                STATEMENT OF HON. JOHN BOOZMAN, 
                   U.S. SENATOR FROM ARKANSAS

    Senator Boozman. Thank you, Mr. Chairman. I think that we 
have had a lot of input from our very competent staffs that are 
working so hard on this issue. And it really is a very, very 
important issue, and I appreciate you bringing it to the 
forefront and allowing us to have these hearings.
    As you know, I feel very strongly about this, not only 
because the field of forensic science is critically important 
to upholding our nation's criminal justice system, but also 
because the forensic sciences are a vital element in supporting 
homeland security and counterterrorism missions and protecting 
the safety of the public.
    In our last forensics hearing, we discussed the many 
advances that have been made in the field of forensic science 
over the last two decades that have led to the prevalence of 
forensic evidence in our judicial system in court rooms, 
particularly in the realm of DNA technology and medical 
identifiers, which are widely relied upon by investigators, 
attorneys, judges and jurists throughout the judicial process.
    We also discussed, in part, the recommendations made by the 
National Academies of Science Report of 2009 and the need for 
standardization in many specific forensic science areas, as 
well as hearing, as the chairman mentioned, from people like 
John Grisham on the tragedy that results from a wrongful 
conviction based on faulty forensic evidence.
    However, as we are all aware, much of the surge of 
attention in forensic science has come from the Hollywood sets 
of popular television shows that portray the state-of-the-art 
forensic laboratories and the use of forensic evidence often as 
a central factor in their ability to solve crimes in a 60-
minute segment.
    This, of course, makes for good entertainment, but in 
reality, these shows grossly misrepresent what our system can 
accurately rely on in terms of the complexity and uniqueness of 
the various fields within the broader field of forensic 
science.
    Today, I'm looking forward to hopefully hearing how we can 
bridge this gap between the basic scientific research in these 
fields and build a structure that will be accurate and reliable 
enough to hold up in a court of law in the most effective and 
efficient manner.
    And while there is no doubt that greater peer review 
research efforts and basic scientific training are necessary to 
increase crime laboratory capacity and improve the accuracy, 
precision and reliability that are necessary to build this 
structure, we must accomplish this by leveraging building upon 
existing initiatives and expertise within the forensic 
community.
    We must set our focus on strengthening forensic science to 
ensure reliable findings and improved judicial integrity, 
national security and public safety without completely 
reinventing the wheel, and I'm confident that we can all work 
together and do so.
    Just this past week, as the Chairman mentioned, we had the 
opportunity to sit down in an informal setting with many of the 
leaders in the forensic community, including Dr. Gallagher, the 
Director of NIST who's here with us today, and we do appreciate 
you very, very much, as well as the representatives from NSF, 
and also the Director, Dr. Lob of NIJ, and the Director of the 
White House's Office of Science and Technology Policy, Dr. 
Holdren. So we truly had an all-star cast and were able to 
discuss this, again, with myself and our staff who has worked 
so very, very hard.
    The purpose of the meeting was to promote an honest 
dialogue to address the problems in the field of forensics and 
discuss proposed solutions in a manner that is often difficult 
to do during a formal committee hearing.
    I was very pleased with the conversation. In fact, I base a 
large portion of my confidence so we can effectively achieve 
improvement in an efficient manner on the remarks during the 
meeting.
    I think we all agreed that the best path forward was 
through better collaboration and coordination of our existing 
resources. Therefore, I'm very eager to hear the comments and 
suggestions from today's esteemed panel. I would like to thank 
all of you for being here today, and so I know your time is 
valuable, so let's get started. With that, I yield.
    The Chairman. Thank you, Senator Boozman, very much, and 
you're too modest about yourself.
    As I say, I want to introduce each of you, and, first, as 
it turns out, I'm looking at him, is Dr. Eric Lander, who is a 
world renowned expert in genomics. Dr. Lander is President and 
Founding Director of the--is that Eli Broad?
    Dr. Lander. Broad.
    The Chairman. Broad, yes. That's him, though.
    Dr. Lander. That's him.
    The Chairman. Yes, of Harvard and MIT. The Broad Institute 
propels the understanding and treatment of human diseases by 
studying their genetic underpinnings.
    Dr. Lander is also a professor of biology at MIT. This is 
kind of impressive. I mean, I don't treat you guys as well, and 
I apologize, but, I mean, this is impressive.
    Dr. Lander is also a professor of biology at MIT and a 
professor of systems biology at Harvard Medical School and Co-
chair of the President's Council of Advisors on Science and 
Technology, which Senator Boozman just mentioned. So that's 
quite a lot.
    And then Patrick Gallagher, right in the middle, is----I 
mean, this is an all-star cast. It really is. I mean, I think 
the last time I was at NIST was 20 years ago, and shame on me. 
And I drive by the National Science Foundation, but do I come 
in? No. Shame on me. I mean, the repository of knowledge and 
the depths of science and the eagerness in those institutions 
is extraordinary.
    So Dr. Gallagher is the Under Secretary of Commerce for 
Standards and Technology and the Director of the National 
Institute of Standards and Technology, NIST, at the Department 
of Commerce. Does one beget the other?
    Dr. Gallagher. After the COMPETES reauthorization bill of 
2010, they are one and the same. Prior to that, I was just 
Director of NIST.
    The Chairman. You see.
    Dr. Gallagher. So this committee----
    The Chairman. I helped advance your career.
    Dr. Gallagher. You did. Thank you.
    [Laughter.]
    The Chairman. And, finally, we have Dr. Subra Suresh, who's 
the Director of the National Science Foundation, an enormous 
repository of knowledge.
    And so, Dr. Lander, you're on.

  STATEMENT OF ERIC S. LANDER, Ph.D., PRESIDENT AND FOUNDING 
  DIRECTOR, BROAD INSTITUTE OF HARVARD AND MIT; PROFESSOR OF 
                  BIOLOGY, MIT; PROFESSOR OF 
SYSTEMS BIOLOGY, HARVARD MEDICAL SCHOOL; CO-CHAIR, PRESIDENT'S 
     COUNCIL OF ADVISORS ON SCIENCE AND TECHNOLOGY (PCAST)

    Dr. Lander. Thanks very much, Chairman Rockefeller, Ranking 
Member Boozman, thanks for inviting me here today to talk about 
this issue of insuring quality and consistency in forensic 
science.
    As you said, I have these other jobs. I direct this Broad 
Institute, worked on the Human Genome Project and direct the 
President's Council of Advisors on Science and Technology, but 
I think the real reason that I was asked to come testify today 
has to do with an experience I had 23 years ago in the first 
case in which DNA fingerprinting evidence was seriously 
examined in our criminal justice system.
    I've given you some extended testimony, and I'm just going 
to try to summarize and describe the key points here.
    The Chairman. Feel free, we're not pressed here.
    Dr. Lander. OK. Well, 23 years ago, I got invited to 
testify in a case in New York called the People v. Castro, and 
in that case--it was a murder case in the Bronx--the defense 
asked me, because I was a human geneticist, if I would look at 
the DNA fingerprinting evidence. I did this reluctantly and pro 
bono, but, in the end, I agreed to look at it and to testify 
and, as much as I was a DNA scientist, the evidence itself was 
appalling.
    There were no standards for declaring when two DNA bands 
matched. There were no standards for declaring when some non-
matching band could be ignored or should be counted as a non-
match. There were no real standards for declaring the 
probability of a match. And testing labs were giving, blithely, 
numbers like one in 10 billion for the chance of a match, when, 
in fact, when you probed underneath it, there was no real 
evidence to support those claims.
    That was just the first year or so of DNA fingerprinting, 
but it was a situation where you had a world class technology 
developed by molecular biology, but it was being applied in a 
way that lacked standards.
    Well, it was a fascinating case. It was a 15 week, pretrial 
hearing in the Bronx, and near the end of it, something very 
unusual happened. Well, unusual for the legal system, maybe not 
for science.
    All the witnesses who had testified on behalf of the 
defense got together with all the witnesses who had testified 
for the prosecution, in the middle of the case, without any of 
the judges or lawyers, and we spent a day reviewing the 
evidence with each other as scientists would do.
    We later found out this isn't the sort of thing that 
usually happens in the legal system, but it's very typical for 
scientists. And, at the end of the day, all the scientists who 
had testified for the prosecution agreed that the evidence was 
appalling and agreed to switch sides and testify for the 
defense.
    The end of the day, the judge really had little choice but 
to declare that DNA fingerprinting was, in principle, a 
powerful technology, but, in practice, had been applied so 
sloppily that it couldn't be admitted.
    This gave rise to a lot of consequences. I had the 
tremendous honor to then work together with the FBI's crime 
lab, in particular, a wonderful scientist called Bruce Budowle 
at Quantico, on trying to set standards for this.
    I served on this National Academy committee that was 
organized on DNA fingerprinting in the early 1990s, and within 
about 5 years, based on the efforts of many people working 
together in the law enforcement community and the scientific 
community, and bringing very different perspectives, but 
talking to each other, DNA fingerprinting was put on a firm 
foundation, the firm foundation it's on today, where it is 
amazingly sensitive and highly accurate, but it wasn't an 
accident. It was the result of real robust collaboration 
between two cultures.
    Now, at the beginning, I've got to say, the law enforcement 
community had serious worries that we were going to have, you 
know, scientists running around and producing, you know, all 
sorts of things that would disrupt the use of DNA 
fingerprinting in the courts.
    What ended up happening was exactly the contrary. That 
collaboration made the technology stronger for prosecutors, 
made it easy to use for cold cases and for identifying 
perpetrators of rapes and murders, and it made it more powerful 
for the defense as well.
    In the end, it wasn't a question of being a tool for the 
prosecution or the defense. It was a tool for truth, and that 
made a big difference. When we get the truth wrong, we both 
risk convicting an innocent person, and we risk having a 
perpetrator still running around on the streets. So the defense 
and the prosecution have a common interest in getting this 
right.
    Well, the power of DNA fingerprinting, as it became a 
highly accurate technology, had another unexpected consequence. 
For the first time, we could go back and look and we, not that 
I myself was involved, but, we, as a community, could go back 
and look at past cases and see where we got things wrong.
    What we'd call it in science is false positives. Think, 
times you thought you'd made a match, but, in fact, DNA now 
revealed you were wrong. And you could then begin to ask how 
did that happen. How did you make that mistake?
    Well, it turns out that in about 60 percent of cases that 
were examined forensic science had been used in these cases 
that involved wrongful conviction. So people could go back and 
ask what was wrong with this forensic science.
    On a notable case, there was an honorably discharged 
veteran who was convicted of murder in Arizona based on bite 
marks. A forensic examiner said his bite marks matched the bite 
marks on the neck of the victim, and he was convicted of 
murder.
    He was later exonerated, based on DNA evidence, and the 
real perpetrator was found, who, incidentally, committed 
another attack on a girl 20 days after the first case. Had we 
been able to finger the right person at the right time, we 
would have not only avoided convicting an innocent person, but 
caught a guilty person.
    Another case in New York, a rape and murder, where someone 
was tied to that rape and murder based on hair analysis and 
soil analysis and fabric print analysis, where an examiner said 
that they were similar. Well, DNA evidence, 20 years later, set 
that person free as absolutely innocent, and it points out that 
hair analysis can be wrong.
    And the FBI has found, in a study it did, about one in 
eight of the matches that were detected in the study were later 
found to be non-matches, based on DNA evidence, fabric 
analysis, bite mark analysis. In all of these cases we often 
lack objective standards for declaring what's a match. What 
features do you want to declare to be matching? What features 
can you ignore? What probabilities can you attach?
    Well, as you already said, in 2009, the National Academy of 
Sciences issued an important and a thoughtful report about how 
to strengthen forensic science, and it pointed out that there 
are issues. There's nothing wrong with there being issues about 
a science. Everything has problems. We need to know about what 
its problems are, so we can make it better.
    But the academy recognized that with regard to many of 
these technologies, they said, and I quote, ``The simple 
reality is that the interpretation of forensic evidence is not 
always based on scientific studies to determine its validity.''
    Sometimes, like in the case of fingerprints, there's a lot 
of information about them, but we still don't have the studies 
that tell us about our ability to truly match fingerprints, 
when you have variability on the surfaces it's been put on, 
when you have partial prints. You get a match based on some 
criteria, but there still aren't really objective criteria. And 
there are two notable cases, one involving the Madrid bombing, 
when fingerprint evidence pointed to the wrong suspect.
    So we know that the error rate is not zero. We know it's 
not perfect. It is not necessary to have a perfect technology. 
The goal is to have a technology where we understand what it's 
good for and what its weaknesses are, so we can weigh evidence 
appropriately.
    So, as I say, the big issue is often having a good method 
for declaring whether things really match or don't match and 
having a good way to attach probabilities, and that just takes 
science.
    What's the solution to all this? Based on my experience 
with DNA fingerprinting, based on what I saw 23 years ago, I 
know what the solution is. It is getting a collaboration 
between the scientific community and the law enforcement 
community working together.
    The National Academy was unambiguous in its report. This 
can't be done within the Department of Justice alone. Now, 
there's nothing wrong with the Department of Justice. There are 
fantastic public servants there, but the people who are 
practicing a technology and using it day by day in law 
enforcement can't be the people who can stand back and 
objectively say what's wrong with it, what are the problems 
with it.
    You can't have the same community both be the advocacy 
users and the skeptics about a technology. It's a marriage of 
the users and independent skeptics working together that make 
things better.
    How do we fix it? Well, look, in my opinion--and I'm going 
to emphasize, despite co-chairing the President's Council, I'm 
here today as an individual. I'm not speaking on behalf of the 
administration, but I'll give you my opinion about it, which is 
that we need a partnership between the DOJ and these two 
agencies here, NIST and NSF.
    With regard to setting the standards in forensic science, 
there's no doubt that the DOJ clearly has an essential role in 
identifying the most important needs and in promoting the 
widespread adoption of standards.
    But there's also no doubt in my mind that NIST should 
clearly take the lead in identifying where our gaps in research 
are, where the weaknesses are, and in developing and proposing 
specific standards and best practices for measurement, for 
analysis and for interpretation. The two agencies need to work 
together, but each needs to lead in its own respective domain.
    There are many ways one can organize to do that through 
appropriate task forces led in one or the other agency, and I'm 
not going to suggest how to micromanage that, but we clearly 
need clear and crisp processes that will accomplish those two 
distinct but complementary goals.
    With regard to research--forensic science research--we need 
a robust scientific research agenda to develop the most 
important body of empirical evidence to be used, the most 
effective technologies to be used.
    So the NIJ provides some limited funding for forensic 
science research, and that's a good thing, but I think the NSF 
has a critical role to play in supporting basic research 
underlying forensic science. The setting of that agenda must 
surely be a collaboration between the law enforcement community 
that says here are the things we desperately need and the 
scientific community that says here's how we can find those 
things out.
    So I'm going to say for both NIST and NSF, I don't want to 
create unfunded mandates. I hope, in fact, that both of these 
agencies will proceed to do this, and I hope they will have the 
additional resources necessary to be able to do these well, 
because this serves justice overall, prosecutors, defense, and, 
most importantly, the whole American people.
    So, in any case, in closing, based on my experiences of a 
very successful situation 23 years ago, I think it is possible 
to bring together these two cultures. I think we can make 
tremendous strides in advancing the quality of forensic 
science.
    I am sure there are people today in the law enforcement 
community who will worry about how will all this science weaken 
the tools. I think they may have it backwards. I think if this 
collaboration happens it will strengthen the tools. These tools 
will become more powerful by being better understood. They will 
become cheaper to use. We'll be able to use them in local 
jurisdictions. They will make them efficient, will make them 
reliable. I think that is a win for everybody.
    I'm pleased to see the activity in both the executive 
branch that I've gotten to observe in my role as the Chair of 
the President's Council, and here with this committee's own 
interest and its attention in the legislative branch to these 
important problems. And with everybody's continued attention, I 
think we can enlist the full power of science in the service of 
justice.
    Thank you.
    [The prepared statement of Dr. Lander follows:]

  Prepared Statement of Eric S. Lander, Ph.D., President and Founding 
  Director, Broad Institute of Harvard and MIT; Professor of Biology, 
 MIT; Professor of Systems Biology, Harvard Medical School; Co-chair, 
   President's Council of Advisors on Science and Technology (PCAST)
    Chairman Rockefeller, Ranking Member Hutchison, and Members of the 
Committee:

    Thank you for inviting me here today to speak to you about an issue 
of tremendous importance for our nation and our justice system: 
ensuring the quality and consistency of forensic science relied upon in 
criminal proceedings.
    My name is Eric Lander. I am the President and Founding Director of 
the Broad Institute of Harvard and MIT, which was the leading 
contributor to the International Human Genome Project a decade ago and 
works today at the forefront of genomic medicine. I am also the co-
chair of President Obama's Council of Advisors on Science and 
Technology (PCAST), which is the external scientific advisory group to 
the White House. I want to emphasize, however, that I am not here today 
to represent the Administration's position. Rather, I have been asked 
to testify based on a longstanding personal interest that traces back 
23 years, to my involvement in the earliest days of DNA fingerprinting.
    Today, we consider DNA fingerprinting to be the gold standard for 
forensic science. It's a staple on television in the fictional crime-
solving on ``CSI'' and on ``Law and Order''; and in reality, it is a 
technology with amazing sensitivity and near-flawless accuracy.
    But, this wasn't always the case.
    In 1989, I participated in one of the first DNA fingerprinting 
cases in the United States--a New York case called People v. Castro. 
Because DNA fingerprinting was such a new technology and I was a 
molecular geneticist with expertise on the human genome, the defense 
asked me to review the evidence and to testify in a pre-trial hearing 
on the admissibility of the DNA evidence. I did so reluctantly and 
insisted on doing so pro bono.
    To make a long story short, the evidence turned out to be 
appalling. There were no objective standards for declaring when two DNA 
bands matched; for deciding when non-matching bands could be ignored as 
``noise''; or for calculating the probability of a match. The testing 
labs were issuing breathtaking statements that particular DNA patterns 
had frequencies of less than one in 10 billion--in effect, asserting 
that they were unique, despite the lack of any rigorous support for 
these claims.
    The pre-trial hearing lasted for 15 weeks. Near the end, the 
scientific experts who had testified for the defense and the 
prosecution took an unusual step--unusual, at least, for the legal 
system. We decided to have a one-day joint scientific meeting to review 
the evidence together, without the lawyers or judges.
    At the end of the day, the scientific experts for the prosecution 
agreed with those for the defense that the DNA evidence was 
unacceptable. They decided to switch sides and testify for the defense. 
Needless to say, the judge excluded the DNA evidence--deciding that DNA 
fingerprinting was reliable in theory but not as practiced.
    It was a triumph of the scientific method and the scientific 
culture.
    Following the case, I worked with others to ensure that we had 
reliable standards for DNA fingerprinting. I had the pleasure to work 
closely with extraordinary public servants in the FBI's Crime Lab, 
including Bruce Budowle, of the FBI's unit at Quantico. And, I served 
on the first of two committees assembled by the U.S. National Academy 
of Sciences on DNA fingerprinting. Sometime later, I also agreed to 
serve on the Board of the Innocence Project.
    Within about five years, DNA fingerprinting was put on firm 
foundation--through a robust collaboration of law enforcement on the 
one hand and independent scientists on the other. It was the alchemy of 
rigorous scientific attention that turned DNA fingerprinting from base 
metal into the gold standard it is today.
    At the beginning, the law enforcement community had serious 
concerns about inviting independent scientists to set standards because 
they worried that it might weaken DNA fingerprinting as a law 
enforcement tool. In fact, DNA became a stronger tool for the police 
and prosecutors--making it possible to revive cold cases, to catch 
serial rapists and murderers. And, DNA also became a stronger tool for 
the defense to protect those who were wrongfully accused.
    In the end, DNA became a tool not for the prosecution or for the 
defense, but for the truth, which is the main goal. When we fail to 
find the truth, we may fail society in two ways--by locking up an 
innocent person and by leaving a criminal free to commit more crimes.
    The power of DNA fingerprinting had another unexpected and very 
important consequence. For the first time, it gave us a way to revisit 
old cases and to prove that some people had been wrongfully convicted--
to prove that hundreds of people in jail were actually innocent; to 
prove that at least 17 people who had been on death row were actually 
innocent; and to infer that, in all likelihood, at least some people 
who had been executed were actually innocent.
    Because many of these wrongful convictions involved forensic 
science, it became important to ask how the forensic science testimony 
could have been wrong. The goal here is not to point fingers. The goal 
is to identify errors, understand the reasons and improve the science 
so that it is accurate. That's how science advances in research labs 
and in clinical labs. And, it is how science must advance in the 
justice system.
    We have learned a lot, both from legal cases and from scientific 
studies, about the need for improving forensic science.
    A paper by Garrett and Neufeld in 2009 reported that, in 137 cases 
where transcripts of forensic testimony were available and a convicted 
person was later exonerated by DNA evidence, roughly 60 percent 
involved problematic forensic testimony.
    The cases included ones like that of an honorably discharged 
veteran who was wrongly convicted of murder in Arizona based in part on 
a comparison of a Styrofoam impression of his teeth with bite marks on 
a murder victim's neck. DNA testing eventually led to the veteran's 
exoneration in 2002. (In fact, the actual perpetrator went on to attack 
a young girl 20 days after the murder, a crime that might have been 
prevented had the police had the right suspect.)
    In another illuminating case, a man was convicted of rape and 
murder in New York, in part on the basis of hair analysis, soil 
comparison, and fabric print analysis. The forensic expert reported 
similarities of hair, soil and fabric prints from the man's truck and 
from the crime scene and victim. Yet, there were no empirical data on 
the frequency of those materials, so no way to know how common such 
characteristics or ``matches'' might be. DNA testing eventually 
exonerated the man nearly 20 years after his conviction.
    In 2009, the National Academy of Sciences issued an important and 
thoughtful report about strengthening forensic science. It cited 
serious issues with the analysis and interpretation of forensic 
evidence.
    It cited, for example, an FBI study that found that \1/8\ of hair 
samples said to ``be associated'' based on microscopic comparison were 
subsequently found to come from different people based on DNA analysis.
    It noted serious issues with bite marks, tool marks, and fiber 
comparisons, including the lack of objective standards and the lack of 
meaningful data and databases from which the probability of matches can 
be inferred. It identified issues with fingerprints, whose evidentiary 
value depends importantly on the quality of the latent fingerprint 
image and for which fully validated analysis methods are still needed.
    The report stated that: ``With the exception of nuclear DNA 
analysis, however, no forensic method has been rigorously shown to have 
the capacity to consistently, and with a high degree of certainty, 
demonstrate a connection between evidence and a specific individual or 
source. In terms of scientific basis, the analytically based 
disciplines generally hold a notable edge over disciplines based on 
expert interpretation. But there are important variations among the 
disciplines relying on expert interpretation. For example, there are 
more established protocols and available research for fingerprint 
analysis than for the analysis of bite marks. There also are 
significant variations within each discipline. For example, not all 
fingerprint evidence is equally good, because the true value of the 
evidence is determined by the quality of the latent fingerprint image. 
These disparities between and within the forensic science disciplines 
highlight a major problem in the forensic science community: The simple 
reality is that the interpretation of forensic evidence is not always 
based on scientific studies to determine its validity. This is a 
serious problem. Although research has been done in some disciplines, 
there is a notable dearth of peer-reviewed, published studies 
establishing the scientific bases and validity of many forensic 
methods.'' [Emphasis added].
    I should emphasize that the problem is often not with the 
technology per se. As we saw with DNA fingerprinting, it is often that 
there is a lack of serious scientific standards for analysis and 
interpretation--that is, (1) methods for deciding that two samples are 
similar matches and (2) methods and databases for attaching meaningful 
probabilities to such similarities. Without scientific standards for 
measurement, analysis and interpretation, expert opinion is not 
scientific and thus not meaningful in court.
    What is the solution? As it was with DNA fingerprinting, the answer 
lies in drawing on two cultures--the criminal justice community, which 
understands most fully the needs for and uses of forensic evidence, and 
the independent scientific community, which understands most fully the 
principles of rigorous scientific analysis.
    The National Academy of Sciences report was unambiguous that the 
task could not be accomplished within the criminal justice community 
alone. In particular, it concluded that ``advancing science in the 
forensic science enterprise is not likely to be achieved within the 
confines of the [Department of Justice]''. The National Academy report 
went so far as to recommend the creation of an independent National 
Institute of Forensic Sciences, within or associated with a science-
based agency.
    For my part, I think that it may be possible to achieve these goals 
through a partnership between the DOJ and two science-based agencies, 
NIST and NSF. But, it will be important that the partnership have clear 
and complementary roles.
    [1] With respect to standards for forensic science:
    DOJ clearly has a central role in (i) identifying the most 
important needs for forensic measurement, analysis and interpretation, 
and (ii) promoting the widespread adoption of good standards for 
forensic science throughout the justice system.
    NIST clearly should take the lead in (i) identifying research gaps 
and weaknesses in forensic science and (ii) developing and proposing 
specific standards and best practices for forensic measurement, 
analysis and interpretation.
    The two agencies should actively engage the other in the work, but 
it is important that the distinct activities have distinct leadership. 
Scientific standards should be based on robust input from the broad 
scientific community--not simply the input of forensic scientists or 
practitioners. As emphasized in the report from the National Academy of 
Sciences, scientific standard-setting should be led by a science-based 
agency such as NIST, not units within DOJ. Conversely, the adoption of 
standards requires the perspective of practitioners. It should be led 
by DOJ.
    In my opinion, the partnership between NIST and DOJ should be 
formalized through appropriate advisory committees or task forces with 
assigned responsibilities.
    [2] With respect to forensic science research:
    We need a robust scientific research agenda to support the 
development of a body of empirical knowledge on the validity of 
technologies and methods. This would greatly help the cause of 
advancing the status of forensic science.
    While the National Institute of Justice (NIJ) provides some support 
for forensic science research, the program has very limited funding and 
engages a very limited scientific community--both in its grantees and 
its peer reviewers.
    I believe that NSF has a critical role to play in supporting basic 
research underlying forensic sciences. The NSF engages the full breadth 
of the U.S. scientific community in both research and peer review.
    For both NIST and NSF, I do not want to create unfunded mandates. I 
believe that some additional funding will be required to NIST and to 
NSF to carry out these roles with respect to forensic science.
    In closing, based on my experiences with the evolution of DNA 
fingerprinting, I believe it is possible that by bringing together the 
two cultures of science and justice, we can make large strides in 
advancing the quality of forensic science.
    Again, I speak only for myself here. But, I am pleased to see that 
both the Executive and Legislative branches have become increasingly 
attentive to the issues of ensuring quality and consistency in forensic 
science. I am very hopeful about the various activities underway in 
both branches--including an ongoing process within the National Science 
and Technology Council, discussions in recent months among 
representatives of the departments and agencies that have equities in 
forensic science, and the interest of this Committee. With everyone's 
continued attention, we can enlist the full power of science in the 
service of justice.
    Thank you.

    The Chairman. Thank you, and you've given me some questions 
to ask you.
    Now, we should go to you.

           STATEMENT OF PATRICK D. GALLAGHER, Ph.D.,

         UNDER SECRETARY OF COMMERCE FOR STANDARDS AND

            TECHNOLOGY, U.S. DEPARTMENT OF COMMERCE

    Dr. Gallagher. Thank you very much, Mr. Chairman and 
Ranking Member Boozman, for your leadership on this topic, and 
I want to include Senator Udall, and----
    The Chairman. Yes, I forgot to introduce him. He's from 
some state.
    Senator Udall. A very important state.
    The Chairman. New Mexico, right? And he's just pure gold. 
And he was the third person who was admitted to this august 
dais today. There'll be no more.
    Dr. Gallagher. As an Albuquerque native, I'm a little bit 
biased.
    The Chairman. Oops.
    [Laughter.]
    Dr. Gallagher. But I have to agree.
    It's a real pleasure to be here today and to discuss the 
role of measurement science and forensics. As you know, NIST 
has a specific mission and that mission is to define a uniform 
scientifically based national system of measurement and to 
support those who have to use that system of measurement, 
whether it's industry or whether it's other Federal agencies, 
or practitioners.
    The scientific basis for accurate measurements using the 
most rigorous, soundly defensible and universally accepted 
science that gives accurate, reproducible and reliable 
measurements underpins any system like this.
    The hallmark of NIST mission in measurement science is that 
there is a scientific basis for every measurement, and a well-
defined system of traceability to that basic unit of 
measurement, so that the uncertainty and precision of the 
measurement can be defined and understood.
    NIST also supports the quality and integrity of the 
measurement system, including forensic measurements, and this 
includes services like providing validation of methods, 
performing primary calibration services, providing calibration 
artifacts, such as Standard Reference Material, standards data 
and supporting laboratory accreditation programs.
    In the context of this mission, NIST has always played a 
role in supporting forensic science. In fact, as early as 1913, 
NIST was the nation's de facto criminal forensic science 
laboratory. And it was NIST, then the National Bureau of 
Standards, that the FBI turned to in 1932 to help them 
establish their laboratory and train their scientists in the 
principles of forensic investigation.
    In fact, it was an NBS scientist whose analysis of the 
ransom letters from Charles Lindbergh helped lead to the 
conviction of that kidnapper.
    Today, by comparison, the range of measurements used by our 
law enforcement community is extraordinarily broad. There are 
nearly 400 forensic laboratories in the United States. More 
than 90 percent of those are at the state and local level, not 
the Federal level, and they are dedicated to some aspect of 
forensic science.
    The NIST programs provide a wide range of services to 
support these laboratories across a broad range of 
measurements, including chemical analysis, biological, 
radiological and nuclear detection and analysis, fire and 
explosives analysis, gunshot residue, latent fingerprint 
analysis, biometrics, digital evidence and many other areas.
    Our laboratory program validates the performance of 
measurements and provides services to help laboratories and 
practitioners assure the equality of those measurements, so 
that forensic specialists can reliably, routinely and 
repeatedly provide the services they are called upon to 
provide.
    In the area of forensic science, NIST is perhaps best known 
for our work in DNA. One of NIST's researchers, John Butler, is 
a leading expert in this area and has worked developing a new 
DNA analysis approach which uses smaller fragments of DNA than 
ever before, was essential in helping to identify many more of 
the victims of the September 11 attacks----
    The Chairman. Did he go to Stanford?
    Dr. Gallagher. John Butler?
    The Chairman. Yes.
    Dr. Gallagher. I'd have to look at his bio.
    The Chairman. Yes. Because I may know him. I'm just--I'm 
sorry. Just struck me.
    Dr. Gallagher. The NIST work in DNA profiling, testing 
helped establish the methods and support the methods now 
routinely used across all crime labs to match individuals to 
evidence samples.
    The FBI requires that forensic DNA labs use this Standard 
Reference Material to calibrate equipment before any of the 
data can be entered into the National Criminal DNA Data base. 
The National Institute of Justice also requires that crime 
laboratories it funds use the same methodologies and tools.
    Our work in DNA analysis is the gold standard in forensic 
science, and what makes that true is the scientific rigor and 
grounds of that work. The measurements are so precise that a 
DNA sample for any one individual can be accurate to a very 
high level. No other area of forensic science has achieved that 
level of precision. And what we stand ready to do is to bring 
our measurement science expertise and approach to many other 
areas of forensic science.
    NIST is working to identify sources and to develop standard 
procedures for minimizing the chance of error in impression 
analysis, a very difficult area, including fingerprints and 
ballistics.
    We also have a technical working group on biological 
evidence preservation. Some of the resources NIST has developed 
in this field include databases such as our latent print 
database, our short tandem repeat DNA, Internet database and 
the world's largest database of literature related to DNA 
research.
    We also have expertise in cell phone and computer forensics 
including the recovery of deleted files and logs.
    Of course, with growing demand in this area, our budget 
request for 2013 included a specific increase in this area.
    Mr. Chairman, this measurement science and standards role, 
our expertise and our dissemination of both the research and 
the tools to support the practice of measurement is a key part 
of our mission. We look forward to aligning this, so that it 
can support the forensic science community.
    And I want to thank you, once again, for this opportunity 
to discuss this with you.
    [The prepared statement of Dr. Gallagher follows:]

 Prepared Statement of Patrick D. Gallagher, Ph.D., Under Secretary of 
   Commerce for Standards and Technology, U.S. Department of Commerce
    Chairman Rockefeller Ranking Member Hutchison, and Members of the 
Committee, thank you for the opportunity to appear before you today to 
discuss the importance of forensic science. The Department of 
Commerce's National Institute of Standards and Technology (NIST) has a 
long history of collaboration in the area of Forensic Science. In the 
Fiscal Year 2013 (FY 2013) budget NIST has requested $5 million for an 
initiative that will enable NIST to create a strategic program to 
broadly address the most critical issues in Forensic Science today.
NIST's Role in the Forensic Sciences
    NIST was founded with a specific mission--to define and advance a 
uniform, scientific, national system of measurement to support industry 
and other Federal agencies. This system of measurement is underpinned 
by NIST's measurement science research. This scientific basis for 
accurate measurements using the most rigorous, soundly defensible, and 
universally accepted science gives accurate, reproducible, and reliable 
measurements. In this context, Forensic Science has always been part of 
NIST, since much of Forensic Science is about forensic measurements.
    Measurement and forensic scientists are bound by mutual interests 
in accuracy and uncertainty, a quantifiable expression of the quality 
of our measurements. NIST works to resolve the uncertainty as it 
pertains to all types of applied sciences. Resolution of uncertainty 
will lead to the accuracy that is necessary in many applications, 
including Forensic Science. Some of the other areas NIST has 
measurement expertise in that have applicability in Forensic Science 
are dimensional analysis, chemical and material analysis, DNA, 
structural fire analysis, radiation signatures and digital data.
    One of the founding principles for NIST is establishing 
traceability in the marketplace for measurement. The work NIST does 
with measurement standards and their traceability to NIST research 
provides the crucial framework for measurement.
    Justice can, in some instances, quite literally hang on a single 
thread, or in the parlance of forensic scientists, a single fiber. 
Forensic scientists are under a tremendous amount of pressure to not 
only get it right but also to explain methodologies and results to a 
judge and jury. NIST can and does provide metrics to help define the 
resolution of methods and the veracity of the results.
    The next piece of the NIST mission is our role in standards. NIST's 
measurement research allows NIST to inform the standards function and 
make sure that the standards are realistic and scientifically valid, in 
this case for use in labs and the field. For NIST to perform our 
standards role well, we must have independent measurement science 
research in the appropriate disciplines of forensic science.
The Past, Present and Future of Forensic Science Measurement and 
        Standards at NIST
    NIST has supported forensic science throughout our history. In 
fact, from 1913 until the Federal Bureau of Investigation (FBI) hired 
its first scientist in 1932, NIST was the Nation's de facto criminal 
forensic science laboratory. Our involvement in the forensic sciences 
originates with Wilmer Souder--one of the Nation's best and least known 
criminologists to whom the FBI turned in 1932 to help them establish 
their lab and train their scientists in the principles of forensic 
investigation.
    Souder's interest in forensic science began in 1913, when famed 
document examiner Albert Osborn sent some precision measuring devices 
to NIST for calibration. By the 1930s Souder had become a pioneering 
expert in the identification of questioned documents, handwriting, 
typewriting, bullets, cartridge cases, and firearms. In his nearly 40 
years at NIST, he assisted almost 1,000 Federal investigations of 
crimes, including extortion, forgery, kidnapping, murder, bootlegging, 
and theft.
    Perhaps most famously, Souder was among the handwriting experts 
whose analyses of the ransom letters helped to convict Bruno Richard 
Hauptmann for the kidnapping and murder of Charles Lindberg, Jr.
    NIST continues this long history of work in support of law 
enforcement. We have worked with the Department of Justice, the 
Department of Homeland Security, and the Department of Defense toward 
the development of standards for body armor, nonlethal weapons, and 
explosives detection technologies, among others.
    In the area of forensic science, we are perhaps best known for our 
work in DNA analysis. One of our researchers, John Butler, Ph.D., 
Leader of the Applied Genetics Group, literally wrote the book 
(actually, he wrote four books with another on the way) on forensic DNA 
typing. Butler's work, developing a new DNA analysis approach which 
uses small fragments of DNA, was essential in helping to identify the 
victims of the September 11, 2001 attacks on the World Trade Center.
    NIST continues its work to further improve techniques for 
identifying severely degraded DNA and advance the state-of-the-art for 
forensic DNA typing. NIST also produces Standard Reference Materials 
for calibration and quality control for forensic science and genetics 
laboratories throughout the United States and the world. NIST's work in 
genetic kinship analysis made it possible for police in California to 
catch a killer known as the ``Grim Sleeper,'' who had been at large for 
more than 20 years.
    The FBI already requires that forensic DNA labs use NIST's Standard 
Reference Materials (SRMs) for quality assurance before they may enter 
their data into the national criminal DNA database. The National 
Institute of Justice (NIJ) also requires that the crime laboratories it 
funds use these SRMs.
    Many broad aspects of NIST's work have applicability in forensic 
science. Measurement is the comparison of a known to an unknown, and 
NIST's job is to supply forensic science labs with as many knowns as 
possible by actively offering our measurement expertise and continually 
working with the community to help them do their jobs more effectively.
    Some of the resources NIST has developed that are used in the field 
include databases such as our mass spectroscopy database and our latent 
print database. We also have expertise in cell phone and computer 
forensics, including the recovery of deleted files and logs. 
Additionally we have fire research and arson investigation expertise 
that have provided assistance in major investigations such as the World 
Trade Center building collapses, the Rhode Island nightclub fire, and 
the Chicago high-rise fire, as well as an extensive array of fire 
modeling software. We've been performing fire research for a very long 
time. We have provided guidance in fire research by initiating the 
compilation of best practices, resulting in the 1980 publication of the 
Fire Investigation Handbook, and through this publication, entered into 
a close partnership with the National Fire Protection Association.
    NIST is working to identify sources and develop standard procedures 
for minimizing the chances of error in impression analysis, including 
fingerprints and ballistics. We also have a technical working group on 
biological evidence preservation.
    The work done by the NIST can help to establish a more solid 
scientific basis for comparing samples and interpreting the types of 
evidence mentioned earlier. A more scientific basis for comparison will 
give the forensic science and law enforcement community a better 
understanding of how well those interpretations can be trusted. The 
goal is to provide a vocabulary that will help define the limits of 
certainty so police officers and forensic scientists can testify before 
a jury and say this evidence came from that suspect with a quantified 
confidence.
    There are nearly 400 labs in the U.S. dedicated to some aspect of 
forensic science. These labs operate under a variety of standards, 
mandated at the state or local level and that may be unique to each 
department.
    There is, of course, much to be said for expertise, but even 
experts can make mistakes. This is why standards are important. 
Standards unite our efforts and help us to speak with one voice. They 
bolster trust. They set a minimum level of performance, a baseline for 
defining success, and a vocabulary for expressing degrees of confidence 
with consistency and objectivity.
Measurement Science and Standards in Support of Forensic Science in 
        Fiscal Year 2013
    The $5 million initiative proposed in Fiscal Year 2013 request will 
enable NIST, in coordination with DOJ, to create a strategic program to 
oversee and manage standard development in forensic science.
    Forensic science must deal with an incredibly wide range of 
interdisciplinary fields, from DNA sequencing to electron microscopy to 
the visual matching of patterns like footprints or tool marks. Often 
evidence samples are degraded, incomplete, or available only in very 
small amounts, which also presents challenges for developing the full 
range of measurement tools required for ensuring confidence in results.
    In 2009, a committee of the National Research Council (NRC) made a 
number of important recommendations for strengthening the public's 
trust in forensic science findings. The recommendations included strong 
support for improved measurement and validation methodologies, 
development of additional forensic science standards, and dissemination 
of best practices to strengthen the precision and reliability of 
forensic science analyses.
    NIST's work in advancing forensic science led the NRC to explicitly 
name NIST as one of several Federal agencies that should collaborate on 
developing new forensic science measurements and standards. Working 
with NIJ and other agencies through reimbursable funding, NIST has 
measurement science research under way in chemical, biological, 
radiological, and nuclear detection and analysis; fire and explosives 
analysis; gunshot residue, latent fingerprints, and many other areas. 
NIST's work in DNA profiling and testing, for example, helped establish 
the methods now used by all crime laboratories to match individuals to 
evidence samples.
    With the requested $5 million initiative, NIST will be able to 
develop state-of the art measurement science and standards as the basis 
for forensic disciplines and technologies. Working with stakeholders, 
NIST has identified critical areas of investment that will be 
complementary to current research. It will also provide practitioners 
with analyses in disciplines that require more research in the near 
term, including areas in which quality control is acknowledged as the 
most pressing issue, and in which significant investment in human 
capital or equipment is necessary to make an impact. Examples of 
priority program areas in this new initiative include: new reference 
methods and technologies for understanding crime scenes and identifying 
criminals, including the uncertainty and standards associated with 
those techniques; improved calibration systems, reference materials and 
databases, and technology testbeds for ensuring reliable and accurate 
forensic science practices; and development of rigorous training 
programs.
    A major outcome of this initiative will be to strengthen the 
utility and reliability of forensic science evidence in the courtroom. 
This work also has the potential for significant cost savings for the 
U.S. justice system by reducing the number of mistrials and appeals 
related to questions about forensic science analysis. One economic 
analysis of cost savings from forensic DNA testing alone estimated a 
cost savings of $35 for every dollar invested; the same analysis 
predicted that if DNA testing were fully utilized the United States 
could expect a $12.9 billion annual savings in prevented crime.\1\
---------------------------------------------------------------------------
    \1\ Butler, John. ``Fundamentals of Forensic DNA Typing,'' Academic 
Press 2009, p.261.
---------------------------------------------------------------------------
    NIST anticipates additional impacts to include new, innovative 
forensic science technologies; increased use of documentary standards 
and measurement services by the forensic science community; and the 
creation of reference materials, reference databases and new 
calibration services to improve the consistency of the implementation 
of forensic science across the Nation.
    In conclusion, public trust in the justice system relies on the 
validity and certainty of evidence presented to the courts. 
Increasingly, that evidence is gathered and analyzed with innovative 
forensic science technologies. Any time a new technology is developed, 
accurate measurements, standards, and uncertainty estimates are needed 
to ensure that the technology works as intended.
    That is where NIST's expertise in the forensic sciences is 
critical, and our Fiscal Year 2013 request will build a stronger 
forensic science program at NIST.
    Thank you again, for the opportunity to testify today, I would be 
happy to answer any questions you may have.

    The Chairman. Thank you very much.
    Dr. Suresh.

           STATEMENT OF DR. SUBRA SURESH, DIRECTOR, 
                  NATIONAL SCIENCE FOUNDATION

    Dr. Suresh. Thank you, Mr. Chairman, Ranking Member 
Boozman, Senator Udall, thank you so much for inviting me to 
testify today.
    Mr. Chairman, I also want to take this opportunity to thank 
you again for your support of science, and also of the National 
Science Foundation.
    As you well know, NSF supports basic research and education 
at the frontiers of knowledge in all fields of science and 
engineering and at all levels of education, science and 
engineering education.
    Many of NSF's activities contribute directly to building 
the human capital, the infrastructure and advanced methods 
needed to ensure the vigor and vitality of the forensic 
sciences.
    NSF supports significant basic research that may be applied 
in forensic settings. Supported research investigates the 
effectiveness of currently employed forensic science approaches 
and explores potential applications of cutting edge theory and 
technologies.
    NSF awards across the foundation support training and 
activities and programs which directly address the need of the 
21st century forensics workforce.
    A search of recent NSF awards shows that the foundation has 
supported 147 awards just in the period 2009 to 2011 that 
contribute to the strengthening of the forensic sciences. So in 
keeping with my One NSF philosophy, each of the foundation's 
seven directorates contributes to this effort.
    The awards represent many facets of NSF activity including 
basic research awards, major research instrumentation, small 
business innovation research, student support, as well as 
workshops.
    Just in this period from 2009 to 2011, more than $50 
million of research has been awarded to institutions in 36 
states and in the District of Columbia, large and small 
colleges and universities, EPSCoR states, minority-serving 
institutions, community colleges and small businesses.
    Let me provide you with just a taste of our activities in 
support of the forensic sciences. Our data analysis also shows 
that there are more than 200 current awards that are supported 
by NSF.
    With support from the Social, Behavioral and Economic 
Sciences Directorate, or SBE, researchers at the University of 
Arkansas are investigating how to overcome obstacles to the 
assessment of likely age changes in facial features.
    An award by the Computer and Information Science and 
Engineering Directorate is using computer approaches to 
handwriting examination, which contributes to the scientific 
analysis of documents of questioned authorship.
    NSF has long used workshops to identify cutting-edge 
opportunities for future directions. In fact, after the NRC 
report was published in 2009, NSF-supported workshops including 
one on cognitive bias and forensic science, that was at 
Northwestern University and another one on nanoscale science 
and technology for forensics.
    NSF supports activities designed to achieve excellence in 
U.S. science education. Students participate in supported 
research and thereby gain skills that are transferable to crime 
labs.
    Some awards specifically expose students to research in a 
forensic setting. A project at Tuskegee University, Auburn 
University, as well as Mississippi State University provides 
occupational training to America's veterans in digital 
forensics.
    Other awards, including one at Arkansas State University, 
capitalize on the popularity of shows such as CSI to engage 
students in science.
    NSF provides funding for small business innovation research 
to stimulate technological innovation in the private sector, 
and a number of awards support commercial development of 
technologies applicable to forensic settings.
    Likewise, investments in infrastructure provide databases 
and instrumentation used in forensic applications and research.
    NSF also works collaboratively with other agencies. The 
award that supports training of veterans was made in 
coordination with the Department of Veterans Affairs.
    Our science staff serves on the National Science and 
Technology Council Subcommittee on Forensic Science, and SBE, 
our Directorate on Social, Behavioral and Economic Sciences, is 
developing a memorandum of understanding with the National 
Institute of Justice to facilitate support of relevant forensic 
sciences.
    So, in summary, NSF has supported and is committed to 
continue supporting the basic sciences that form the foundation 
for forensic applications, to collaborate with other mission 
agencies and to support science education opportunities 
necessary for the 21st century, especially in the area of 
forensic sciences.
    Thank you, Mr. Chairman. I'll be happy to answer any 
questions.
    [The prepared statement of Dr. Suresh follows:]

           Prepared Statement of Dr. Subra Suresh, Director, 
                      National Science Foundation
Introduction
    Chairman Rockefeller, Ranking Member Hutchinson, and distinguished 
Members of the Committee, thank you for inviting me to participate in 
this hearing on ``The Science and Standards of Forensics.''
    I am pleased to have the opportunity to discuss the National 
Science Foundation's (NSF) investments that strengthen the forensic 
sciences in the United States.
    As you well know, NSF supports research at the frontiers of 
knowledge across all fields of science and engineering (S&E) and all 
levels of S&E education. Its mission, vision and goals are designed to 
maintain and strengthen the vitality of the U.S. science and 
engineering enterprise. In this role many of NSF's activities 
contribute directly to building the human capital, infrastructure and 
advanced methods needed to ensure the vigor and quality of the forensic 
sciences.
    NSF is supporting significant basic research that may be applied in 
forensic settings both in the near and longer term. Supported research 
investigates the effectiveness of currently employed forensic science 
approaches and also explores potential applications of cutting edge 
theory and technologies. Activities in NSF's Education and Human 
Resources Directorate, as well as in basic science directorates, 
support training programs and activities which directly address the 
need for a 21st century forensics workforce.
    A search of the NSF Awards Abstracts Database identifies 210 active 
awards using the search-term ``forensics.'' Each of the Foundation's 7 
directorates is represented in this sample of awards. Of these awards, 
147 were made in the years 2009-2011 and several awards have been made 
thus far in 2012. The awards represent many facets of NSF activity 
including basic research awards, Major Research Instrumentation, Small 
Business Innovation Research, Doctoral Dissertation Improvement awards, 
Research Experience for Undergraduates, and Workshops. For 2009-
2011alone, the awards total in excess of $53 million and awards were 
made to institutions in 36 states and the District of Columbia. Awards 
were made to large and small universities, state and private 
universities, minority-serving institutions, small liberal arts 
colleges, community colleges and a number of small businesses. Awards 
have also included collaborations with international scholars.
    After a brief discussion of background issues I will provide you 
with a number of examples of our activities in support of the forensic 
sciences. I will also point to several actions currently underway at 
the Foundation that should enhance our contribution to this effort.
Background
    In 2009, the National Research Council (NRC) published 
``Strengthening Forensic Science in the United States: A Path 
Forward.'' The report was prompted by the Senate's concern in 2006 that 
``. . .there exists little or no analysis of the remaining needs of the 
(forensic science) community outside the area of DNA.''
    The NRC report goes on to indicate areas where it determined there 
to be significant challenges facing the forensic science community:

  <bullet> lack of mandatory standardization, certification, 
        accreditation

  <bullet> disparities between local, state and Federal laboratories

  <bullet> insufficient funding for instrumentation

  <bullet> unacceptable backlogs

    The most significant comment that has direct relevance to NSF is 
that

        . . . forensic science . . . research, education, and training 
        lack strong ties to our research universities. The forensic 
        science system is underresourced also in the sense that it has 
        only thin ties to an academic research base that could support 
        the forensic science disciplines and fill knowledge gaps (pg 
        15).

    Further, the report advocates for investment in research:

        . . . of the various facets of underresourcing, the Committee 
        is most concerned about the knowledge base. . . . [There are] 
        fundamental limitations in the capabilities of forensic science 
        disciplines to discern valid information from crime scene 
        evidence (pg 15; emphasis added).
Activities at NSF that contribute to Strengthening Forensic Science
Workshops
    NSF has long used workshops and other small gatherings of scholars 
and members of relevant communities to discuss cutting edge ideas and 
to identify and investigate gaps in knowledge and to propose future 
directions. In the area of forensic science, NSF has supported several 
workshops in the recent past; the NSF awards database lists 11 active 
awards containing the key words ``forensic science'' and ``workshop.''
    Two recent examples:

        In direct response to a recommendation of the NRC report that 
        research on human observer bias be encouraged, the Behavioral 
        and Cognitive Sciences Division of the Social, Behavioral and 
        Economic Sciences (SBE) Directorate supported ``Cognitive Bias 
        and Forensic Science'' at Northwestern University in September, 
        2010. The workshop brought together lawyers, forensic 
        scientists, and academic researchers in the area of cognitive 
        bias to examine the role that psychological factors may play in 
        forensic pattern recognition. The report of the workshop is 
        available at http://www.law.northwestern.edu/faculty/
        conferences/workshops/cognitivebias/. In line with the workshop 
        goal to ``. . . convert general theories and testable 
        hypotheses into concrete research proposals'' attendees 
        continue planning the development of joint research projects.

        The Division of Electrical, Communications and Cyber Systems/
        Directorate for Engineering (ENG) supported a workshop in 
        August 2011 on ``Nanoscale Science and Technology for 
        Forensics'' at the University of Connecticut. ``The workshop 
        assembled key experts from nanotechnology areas 
        (optoelectronics, materials, fabrication, engineering and 
        medicine) to focus on applications in forensic science.'' This 
        multidisciplinary meeting was designed to advance 
        identification of future research needs and to promote new 
        collaborations. The workshop also established recommendations 
        for the development of programs for training graduate and 
        undergraduate students to become the next generation of 
        forensic scientists and engineers. A special effort was made to 
        include student attendees.
Training Activities
    NSF supports numerous activities designed to achieve excellence in 
U.S. science, technology, engineering and mathematics (STEM) education 
at all levels and in all settings (both formal and informal) in order 
to support the development of a diverse and well-prepared workforce of 
scientists, technicians, engineers, mathematicians and educators, as 
well as a well-informed citizenry. This is certainly the case in the 
realm of forensic science. Many students participate in NSF supported 
research and thereby gain exposure to the conduct of research and some 
of these students ultimately focus their attention and career in a 
forensic science. In addition, there are a number of awards that 
specifically expose students to research in a forensics setting.
    Some awards capitalize on the popularity of shows such as CSI to 
engage students in science. One example is an award to Arkansas State 
University titled ``CSI: Classroom Student Investigations'' that was 
supported by the Division of Research on Learning in Formal and 
Informal Settings/Directorate for Education and Human Resources (EHR). 
This project ``. . . uses the popularity of the Crime Scene 
Investigation television show . . . to train teachers in forensic 
science topics and use that training in their science classrooms to 
stimulate and encourage middle and upper school students in science 
topics generally.'' Upon completion, the project will ``. . . examine 
the impact on students' interest in STEM careers in classrooms of 
participating teachers and examine how participation in the program 
affects participating teacher implementation of reform based pedagogy 
and technology.''
    Other basic research projects, while not focused on educational 
goals, include capacity building components. With support from the 
Division of Mathematical Sciences of the Directorate for Mathematical 
and Physical Sciences (MPS), researchers at Michigan State University 
are investigating modeling and computational issues in fingerprint 
analysis. A central question in fingerprint analysis is the 
individuality of a person's prints. The whorls, ridges and valleys 
present complex data that lead to the assumption of uniqueness. But in 
a legal setting, there are significant questions as to what constitutes 
a match when comparing a latent print from a crime scene and those of a 
defendant. These researchers are developing computational models for 
addressing the question of uniqueness and this may significantly 
impacts how fingerprint evidence is reported and used for the 
identification of individuals. Graduate students working with the 
principal investigators will be equipped with the analytic, computing 
and methodological skills that are necessary to perform high level 
forensic research.
Basic Research
    Numerous basic research projects have potential applications in 
forensic science. Questioned Documents analysts attempt to extract 
information from a document utilizing as many sources as possible, 
including handwriting analysis. A recent Early Concept Grants for 
Exploratory Research (EAGER) award by the Division of Information and 
Intelligent Systems/Computer & Information Science and Engineering 
(CISE) to a researcher at SUNY Buffalo is using computer approaches to 
``Automatic Identification of Writer Accent and Script Influences in 
Handwriting.'' The investigator is testing hypotheses with respect to 
handwriting analysis by examining and analyzing the written works of 
native and non-native writers of a particular script or alphabet.
    One of the most recent awards, supported by the Division of 
Behavioral and Cognitive Sciences of the Social, Behavioral and 
Economic Sciences (SBE) Directorate, uses GPS to track vultures. 
Vultures arrive early in the process of decomposition of human remains 
and leave few clues to indicate their scavenging activity. This can 
greatly complicate medico-legal death analysis. This doctoral 
dissertation improvement award seeks ``to establish a predictability 
model of likely vulture scavenging habitats using remote sensing 
techniques and spatial and temporal statistics,'' the results of which 
could have significant implications for the practice of forensic 
pathology.
    The Division of Chemistry (MPS) awarded funds to a researcher at 
the University of Iowa to use surface enhanced Raman scattering (SERS) 
for the detection of small molecules without the use of traditional 
receptor--based surface chemistry. If successful, this process could 
provide new means of detecting trace levels of drugs and biomolecules 
and thereby enhance the sensitivity of forensic investigations.
    The Division of Social and Economic Sciences (SBE Directorate) 
funded researchers at the University of Arkansas, in collaboration with 
researchers at the University of Central Lancashire in the United 
Kingdom, to assess current methods of forensic age progression 
(assessing likely age changes in facial features), including 
identifying factors that influence the accuracy of age progression 
methods. The PIs will also explore novel methods for creating and 
presenting age progressed images that may improve the accuracy of 
forensic identifications.
Data and Scientific Infrastructure
    Forensic scientists benefit from access to large databases as they 
attempt to analyze and interpret crime scene evidence. NSF has 
supported a variety of data infrastructure projects in recent years 
that generate valuable resources for forensic practitioners. These 
projects also include support for the training of future scholars.
    The Division of Behavioral and Cognitive Sciences (SBE) continues 
to fund the Allele Frequency Database (ALFRED) at Yale University. This 
database currently houses information on human genetic variation on a 
global scale -ALFRED now has data on 663,602 genetic polymorphisms, 714 
populations and more than 37,000,000 frequency tables (one population 
typed for one site). These data are invaluable for investigating human 
population structure, migrations and relationships, and can also be 
utilized by forensic scientists.
    The Biology (BIO) Directorate's Division of Biological 
Infrastructure supports The Human Impact Pollen Database at the 
University of Massachusetts, Boston. This searchable digital image 
database of pollen from plants that are associated with human 
activities is critical for investigating both past and current human-
environment interactions. This on-line database provides value for a 
variety of disciplines including forensic identification.
    The NSF also provides Major Research Instrumentation (MRI) grants 
to support the development of specialized laboratories or the 
acquisition of cutting-edge equipment that facilitates research and 
training opportunities at U.S. institutions. Several such awards have 
supported forensic science research and training in recent years.
    The Office of Cyberinfrastructure provided MRI support to 
Jacksonville State University for the development of a cybersecurity 
laboratory facility to facilitate research and training activities in 
digital forensic methods of analysis, among other relevant areas.
    Civil, Mechanical and Manufacturing Innovation in the Directorate 
of Engineering provided MRI support to Southern Illinois University at 
Edwardsville for the acquisition of a 3D laser scanner and associated 
modeling software that promote research and training on high resolution 
photographic and three-dimensional coordinate data which is often used 
by forensic scientists in the analysis of crime scenes. The 
instrumentation is being used to test new modeling and analytic 
approaches for investigating forensic sites in a multidisciplinary 
context.
    Finally, the Division of Chemistry/Directorate of Mathematical and 
Physical Sciences has provided MRI support to Cleveland State 
University for the purchase of a triple quadrupole/linear ion trap 
liquid chromatograph mass spectrometer system. he instrument will 
support a wide range of research and training activities, including the 
ante- and post-mortem forensic analysis of drugs and other specimens.
Small Business Innovation Research
    The NSF provides funding for Small Business Innovation Research 
(SBIR) to stimulate technological innovation in the private sector and 
to increase the commercial application of federally supported research 
results. A number of awards in recent years have supported the 
development of materials, algorithms, and instrumentation that have 
significant implications for the practice of forensic science. Two 
examples are provided below.
    SBIR support was recently provided to DNA Polymerase Technology 
Inc. for the development of novel enzymes that can aid the rapid 
detection of pathogens via DNA detection and amplification. The 
processes explored may aid forensic practice, where the acquisition of 
small amounts of DNA in the context of inhibitors can present 
challenges to identification.
    NSF support was also provided to Deurion, LLC for SBIR development 
of Surface Acoustic Wave Nebulization (SAWN) for use with mass 
spectrometers. SAWN provides a means of ionization outside of the 
laboratory with significant portability and ease of use. This technique 
may improve law enforcement's ability to collect and analyze crime 
scene materials.
Human Resources
    In addition to funded research, training and workshops, NSF has 
invested significant human resources in support of the forensic 
sciences.
    The National Science and Technology Council's (NSTC) Committee on 
Science established a Subcommittee on Forensic Science in direct 
response to the NRC report. NSF has been represented on the 
subcommittee since its inception. The individual who attends the 
Subcommittee meetings also co-Chairs the Research, Development, Testing 
and Evaluation (RDT&E) Interagency Working Group (IWG). An NSF program 
officer also serves on this working group.
    NSF has provided input in numerous areas including discussions 
about:

  <bullet> conducting merit-based peer review,

  <bullet> identifying and prioritizing research opportunities,

  <bullet> designing survey instruments for assessing current practices 
        and needs,

  <bullet> judging validity and reliability in laboratory sciences

    Over the past several years SBE/BCS science assistants also aided 
in the design of the Subcommittee's website (http://
www.forensicscience.gov/iwg.html) and supported the Interagency Working 
Group on Outreach and Communication.
Near and Longer Term Activities
Collaborating With Mission Agencies
    The NSF continues to work with other agencies to identify 
opportunities for advancing the forensic sciences. As the recent past 
indicates, many investigator-initiated projects directly address 
scientific questions of importance in forensic settings.
    NSF continues to be represented on NSTC Subcommittee on Forensic 
Sciences and on its RDT&E IWG. The IWG has assessed the state of the 
science in a number of forensic settings (e.g., latent print analysis, 
questioned documents, fiber analysis, odontology) and is preparing 
annotated bibliographies and other documents that will help to 
elucidate foundational aspects of the forensic sciences and encourage 
further scientific inquiry.
    The NSF's Directorate for Social, Behavioral and Economic Sciences 
is developing a Memorandum of Understanding with the National Institute 
of Justice regarding research, development, and evaluation of social 
and behavioral sciences as they pertain to legal and forensic matters. 
Activities undertaken via the MOU will foster information-sharing about 
the most promising areas of research in the social and behavioral 
sciences, and serve as a catalyst to identify synergies and 
opportunities for future collaboration.
Coordination within NSF
    As clearly documented above, NSF invests significant human and 
financial resources in advancing the forensic sciences. In order to 
better coordinate our efforts going forward, we are planning to convene 
an internal group of appropriate program officers to share information 
regarding support for activities with obvious forensic applications.
    Another potential activity that could benefit the forensic sciences 
would be the issuance of a Dear Colleague Letter (DCL) that notifies 
researchers of the Foundation's interests in supporting activities with 
potential applications to the forensic sciences. Such a DCL would draw 
the attention of academic and forensic communities to the potential for 
utilizing forensic settings as test-beds for asking basic research 
questions. Some psychology researchers, for instance, have already 
begun to utilize forensic laboratories as settings for asking basic 
questions about human cognition and decision making. The DCL could be 
designed to encourage collaborative, interdisciplinary teams (to 
include basic and applied forensic scientists) to develop scientific 
proposals around the relevant questions. Likewise the DCL could 
encourage the use of forensic settings for development of new 
methodologies and instrumentation.
    In keeping with the philosophy of OneNSF, the Foundation could 
develop a cross-cutting panel to review a set of proposals that focus 
on aspects of forensic science emanating from a number of relevant 
basic science directorates. Such an interdisciplinary approach that 
brings together basic researchers and practitioners would create new 
knowledge, stimulate discovery, and address a range of complex 
problems.
    NSF continues to develop a multi-year plan of Integrated NSF 
Support Promoting Interdisciplinary Research and Education (INSPIRE). 
This activity responds to issues raised in a variety of publications 
and to perceptions in the research community that NSF does not always 
provide good opportunities for comprehensive review and support of 
unsolicited interdisciplinary research. The current INSPIRE activity 
provides funding for high risk/high reward research that brings 
together ideas and approaches that cross intellectually distinct areas 
of science. Given the strong potential for coordinating the interests 
of basic scientists and the forensic science community through such 
opportunities, we have encouraged the development of interdisciplinary 
partnerships that address forensic science issues under this umbrella.
Summary
    In summary, NSF is committed to supporting the basic sciences that 
form the foundation for forensic applications. Many of the projects 
funded in recent years will strengthen the forensic sciences both 
through support of research with obvious application to forensic 
settings and, in the longer-term, through as yet unimagined scientific 
and technological developments. In keeping with the NRC's 
recommendations, research in the behavioral and social sciences will 
also inform the forensic community regarding the impact of cognitive 
biases on the evaluation and utilization of forensic information.
    The forensic sciences are also strengthened by NSF's support of 
many other activities. As a general statement, involvement of students 
in supported research will help to ensure a skilled scientific 
workforce for the 21st century and provide important training 
opportunities that will ultimately improve the practice of forensic 
science. The Small Business Innovation Research program will help to 
spur economic growth with projects that improve the precision and 
operability of instrumentation and processes in forensic laboratories. 
Major Research Instrumentation and database development activities will 
also assist in building infrastructure for pursuing forensic-related 
opportunities. And NSF will continue to provide human and financial 
resources in the years ahead to coordinate and collaborate with other 
Federal agencies as we work to improve the practice of forensic 
science.
    Mr. Chairman, this concludes my remarks. Once again, thank you for 
the opportunity to appear before you today on this topic. I would be 
happy to answer any questions you may have.

    The Chairman. And thank you, Dr. Suresh.
    Let me just start with questions, and this can be 
freewheeling. The Mr. Grisham that I mentioned before was at 
our December hearing, but I thought, frankly, the best 
testimony came from a former Federal prosecutor named Geoffrey 
Mearns. You know him? I just met him that one meeting, and he 
is a member of the National Academy of Sciences committee that 
reviewed the state of forensic research or science.
    At the Department of Justice, Mr. Mearns prosecuted many 
high-profile cases, including the Oklahoma City bombing.
    As a prosecutor, he said, and I just totally identify with 
this--he said he always assumed that evidence used in a 
courtroom was based on objective scientific analysis. I mean, 
why wouldn't he?
    But after studying the issue as part of the National 
Academy's review, he told us his faith was shaken. Mr. Mearns 
testified that he came to realize that there was not nearly 
enough genuine science to validate many forensic science 
disciplines.
    So, Dr. Lander, you mentioned in your statement sort of 
bands of human genome.
    Dr. Lander. Yes.
    The Chairman. And then you also mentioned hair follicles. 
Now, let's go to the hair follicles, since I can relate to that 
a little more easily. How can one mess that up scientifically?
    Dr. Lander. So look under a microscope at two hairs that 
might come from the same person or might come from different 
people. What are you going to look at? The color? The width? 
The curliness or frizziness?
    You can think up a whole bunch of features that might 
describe a hair. So which ones do you pay attention to? Which 
ones might you ignore as having to do with the conditions under 
which the hair was found? Is this really the same color of 
brown or not?
    Well, you could imagine a forensic examiner with complete 
honesty saying, look, in my experience, these things are very, 
very similar. That's, indeed, the experiment the FBI ran when 
they looked at things and asked, when people said they're 
really very similar, in my expert judgment.
    You can imagine someone testifying in a courtroom. In my 
judgment, these really must have come from the same person. But 
then the FBI ran an experiment where they got the DNA off the 
bottom of the hair and found one time in eight, even when 
concentrating on certain features they thought matched, the 
hairs didn't match.
    Look, the same is true for fingerprints. Now, it's much 
better technology, but you run a fingerprint here, there are 
all these wiggly patterns. What wiggles are you matching and 
what wiggles are you ignoring? Now, it's usually not on a 
perfectly flat surface. It's not like when you get your 
fingerprints done by the FBI. It's on some funny surface. So 
it's never going to match exactly. How close is close enough?
    It's actually the same thing as we found 23 years ago with 
DNA. When we said, in that case 23 years ago, Do the bands line 
up? Well, they don't line up perfectly. They're always a little 
different. How different is too much? How much is the inherent 
noise in the technology?
    That's what NIST is so good at. NIST looks at the same 
things a hundred times, a thousand times and says, what's the 
inherent variability? And if it's more than that, we shouldn't 
really trust it.
    Many things that we think are obvious, actually, well, 
they're not so obvious, especially if you're going to apply 
them thousands of times, and one percent of the time you're 
wrong, that's still an awful lot of wrong identifications.
    The Chairman. But, now, a lot of that, and going to Senator 
Boozman's appropriate reference to NCIS and CSI, et cetera, 
actually, in their defense, in West Virginia, at our two 
universities, which do a lot of forensic science, I mean, 
students are just pouring into those programs. So, you know, 
they get some credit for that, if, in fact, they do, but I'll 
give it to them for the moment.
    But those aren't done by people. Those are done by computer 
software, and all of a sudden, match comes up. So it isn't a 
human observation. It's a computer observation. Help me 
understand that.
    Dr. Lander. Well, if you have your samples analyzed on CSI, 
the computer does it and it just says match. In reality, it's 
often a human who's doing it, a human who's deciding which 
features matter. And even when it's a computer doing it, 
there's someone who wrote a computer program to determine 
whether things match.
    The Chairman. But was it for that particular science 
decision?
    Dr. Lander. Well, it depends. In the case of DNA, that case 
I told you about 23 years ago, someone had a computer program. 
They measured the bands by computer. They measured the distance 
and said it differed by this much, and the computer determined 
was it significant. It was how many standard deviations apart 
was it.
    The problem wasn't the ruler. The problem was whether that 
difference was a significant difference or not. The ruler was 
fine. The calculation was fine, but the inference of 
significance was what's wrong.
    So the best computer in the world wouldn't help. There was 
no data underlying it to tell you that two things that were the 
same must be this close, and if it's farther apart than this 
much, they can't be matching. You need a database underlying it 
or when there are many features, you need to know which ones to 
choose.
    We can fool ourselves by using the computer, by pretending 
we're being objective, by choosing some things and then 
ignoring what's really the heart of the matter. Do we have data 
underlying it to tell us whether this match is really 
significant?
    The Chairman. Well, but then you have left me with two 
problems, and then I'll turn it over to Senator Boozman. You 
have an apparent imperfection of human decision-making.
    Dr. Lander. You do.
    The Chairman. Which could go on eternally.
    Dr. Lander. Yes.
    The Chairman. And as the day wears on or as his or her 
years wear on, it could get worse. And then you have a 
computer. And most people--it's sort of like robotics at an 
automobile plant. You look at the robotics and you say, they 
must be doing it exactly right, because when there's a problem, 
at least at Toyota, you know, it'll say, problem, and then a 
robot will come in and fix the problem, machine to machine.
    And so it just buttresses this belief that science has to 
be exact. There's some form of way of getting at science, 
forensic science which it has to be exact, but you're giving me 
no hope.
    Dr. Lander. No, no. Let me restore your hope, Mr. Chairman.
    The Chairman. OK.
    Dr. Lander. I want to restore your hope. I'm saying just 
because it's done by a computer or a machine doesn't make it 
right, but that doesn't mean it can't be right. That is what we 
have places like NIST for. What you do is you measure something 
hundreds of times. You empirically validate how much variation 
there is, and then you build that into the computer program.
    My objection isn't to the computer program. My objection 
isn't to the human. My objection is to either of them 
proceeding in the absence of data, measurement data. It may 
sound boring to measure things carefully under many different 
conditions, but it is the heart of accuracy. DNA works because 
it's been done so many times that we know the problems that 
arise.
    Let me fully restore your faith in the ability to get it 
right. You've just got to concentrate in advance on getting it 
right. So when we have bite marks and someone testifies that 
this bite mark is the same as that bite mark, but there are no 
studies that show how much human dentition varies, how well a 
mark is transferred from your teeth to a neck, there are no 
such studies, you should be worried about that.
    But if NIST had decided to go into the bite mark business 
and had carefully evaluated that across a couple of hundred 
subjects under many different necks that were available for 
biting, you might be able to put real legs under it.
    You can put legs under almost anything if you go to the 
trouble of doing it or at least you will know how accurate it 
is. It is all about that collaboration.
    The Chairman. Yes, and then the sad thing is what we 
started with and that is that people tend to believe that if 
it's being introduced as evidence in a court, it's just got to 
be true or else it just wouldn't be there.
    Dr. Lander. So, therefore, it's our job as scientists, as 
lawmakers to make sure that it is true by providing that 
scientific foundation for it.
    The Chairman. Thank you, sir.
    Senator Boozman.
    Senator Boozman. Thank you, Mr. Chairman.
    And so I agree, you have to have the collaboration to get 
that done, and then, you have the good science to back it up.
    With just the pure science, how do you get that into the 
field? You know, this isn't like pure science in the sense of 
creating some sort of scientific breakthrough that you're going 
to market and perhaps make many, many dollars out of it.
    When we're talking about bite marks and things like that, 
the commercial aspect would not be very great. How do we get 
that from your laboratory where there's a breakthrough made out 
in the field to the small town policeman?
    Dr. Suresh. OK. Let me take a stab at that. In fact, I want 
to go back to the chairman's question to Dr. Lander. You know, 
the level of uncertainty that you have in DNA interpretation is 
no different from the level of uncertainty we have in any 
scientific experimental work. So let me give you an example 
that we all know.
    Whenever we develop new materials--for example Alcoa, not 
too far from West Virginia, designs a new material and Boeing 
puts that into a plane. It's a 20 year process.
    So what does Alcoa do? They design a material outside of 
Pittsburgh in their research center, and they make the material 
in Davenport, Iowa. And they do a lot of testing, and they pull 
the material, they twist the material, they bend the material, 
they break the material, and they give the material to Boeing.
    Boeing doesn't believe anybody else's data because human 
lives are involved in flying a plane. They do their own in-
house testing. And in order to make sure that the testing is 
reliable, and the interpretation of the testing is reliable, 
there are standards, which have come into existence thanks to 
the work of NIST.
    There is a whole organization called American Society for 
Testing and Materials that over the course of many, many 
decades has established standards. If you want to pull a piece 
of metal, what are the standards by which you do your 
experiment? Those standards are established by NIST and various 
professional societies. And it's that kind of validation of 
scientific data that needs to exist for the interpretation of 
DNA. That's what is lacking. That's where the scientific method 
comes in.
    So, historically, what NSF has done is fund the research at 
universities that work with industry and create the basic 
scientific data. Agencies like NIST come in and help develop 
the standards. These, too, are then adopted by industry and 
that becomes the bread and butter of how the industry develops 
a new material and puts it into service. I think it's that kind 
of a scientific method that needs to be established in 
forensics.
    So to your question, Mr. Boozman, with respect to how do we 
bring it to the attention of people, we can, with these 
standards, with these new tools and technologies, we have a 
variety of things in place. I can only speak for NSF here.
    If there are basic scientific discoveries, we can have 
engineering research centers that work with industry. We have 
small business innovation research. We have partnerships for 
innovation. We have innovation research. These are all programs 
that NSF supports.
    Those kinds of programs, the SBIR program, which is not 
just at NSF, it's in nine Federal agencies, can help take the 
basic scientific discoveries and help translate them into 
commercial practice for small businesses, entrepreneurs, bring 
them in touch with venture capital community.
    And the program we launched last year, the NSF Innovation 
Corps, is another attempt by NSF to bring that kind of thinking 
from basic discoveries to the marketplace to the community.
    Senator Boozman. Go ahead.
    Dr. Gallagher. I didn't want to take your time, but just 
very quickly, you asked sort of two questions. One is how do 
you set priorities, and that happens at the junction between 
the world that's practicing forensics and the scientific world. 
It's really at that interface that those priorities merge, work 
and science most contribute.
    The other part of your question was interesting, because 
there's an impression that putting science in forensics is 
tantamount to putting scientists everywhere.
    We're not talking about putting Ph.D. research scientists 
in every criminal jurisdiction across the United States. What 
we're saying is that the tools they use should have a basis in 
science. And so, in fact, this can be built into the process 
they use, into the laboratory tools they use, the technology 
they use, and their methodology.
    Senator Boozman. No, and I agree, and guess my concern is 
that it's going to take money to get that to small town 
Arkansas or wherever, and it's just very difficult right now. 
Something we need to do.
    The Chairman talked about the human factor that comes in 
and there's always a human factor, whether it's the judge or 
the jury or whomever.
    We can take some of that out by accreditation and 
certification which, to me, is very important. Can you all 
comment about that where you guys think we need to go in that 
regard?
    Currently, you've got some crime lab certification, but 
talk about the need for perhaps some higher degrees in the 
science of forensics.
    Dr. Gallagher. So the human factor really has, again, a 
couple of different elements. One of them has to do with the 
methods that you are using, whether making the measurement, 
handling the sample or interpreting the information that comes 
from your measurement. Those can be standardized, and those 
standards are based on science. That's kind of where the 
science gets put in.
    And so you develop standard operating procedures for 
laboratory personnel. You develop specific specifications for 
equipment. You develop standardized analysis tools.
    What accreditation and certification do is they're 
basically the quality control system that's placed on that 
system to give the system the assurance that the laboratory is 
following those procedures, that those people have the skills 
that they need to have to do what they're being asked to do, 
that the technology that they bought is compliant with and 
meeting the specifications. And that's a very important part of 
the system, because it basically shows that we're following our 
own process and that it's about quality control.
    Senator Boozman. And the things that are in place now, 
perhaps with some strengthening, are they adequate as far as 
the accrediting agencies that we have?
    Dr. Gallagher. The take-home message I got, certainly, from 
the National Academy report, is that it's the disaggregation of 
our system that's really interesting. So we have areas where 
it's quite strong, where, in fact, the data--for example, DNA 
data is not put into the CODIS, the national DNA profile 
database, unless those standards are met. So there's what we 
call conformity assurance. There's a process in place to make 
sure that people follow that and that the data has some 
integrity.
    In other areas, the systems are weaker or they're not 
uniform across the U.S. And so one of the big messages in there 
was getting much more systematic about the quality control as 
well as the methods.
    Senator Boozman. One last thing that's related to that, in 
talking to some of the crime lab folks, some of them are 
advocating for an independent entity, an office of forensic 
science within DOJ to coordinate all of this. And I have been 
very impressed with the collaboration. I think it's been good, 
and it was really much greater than what I thought.
    Do we need a group like that combined with maybe a group of 
the guys out in the field some sort of panel there to make sure 
that the collaboration continues and somebody's responsible?
    Dr. Gallagher. Certainly, in my opinion the answer is yes, 
that most of the progress we saw in DNA, for example, came from 
the intersection of the world of science with the practicing 
world of criminal forensics. You can't really have one without 
the other. I mean, having a beautiful scientific basis for 
something that can't be deployed and implemented and practiced 
or has no meaning in the field is not going to be that useful.
    So I don't know what the structures look like, but there is 
no question that the ability to convene and have the 
appropriate mechanisms where the scientific and the standards 
deployment and the practitioning community can talk together, 
and the communication needs to work both ways, the science 
coming into the process and also the priorities coming out of 
the practicing field back into the world of science. So that's 
a key part, I think of any solution we're talking about.
    Dr. Lander. If I can comment very briefly on that, yes, I 
think it's a good idea to have such an office in Justice, but 
is it enough? No office of forensic science sitting at DOJ will 
be a substitute for the kind of scientific work that has to go 
on with regard to standard setting. So an office at the DOJ can 
play an incredibly important role in promoting the adoption of 
standards throughout the country, identifying needs, 
accreditation. Only the DOJ can do that.
    But it's tasking it with the wrong mission to ask it to be 
the independent scientific body that sets those standards. So 
as long as there is strength at both places, and they, as Dr. 
Gallagher said, communicate about the needs and then the ways 
to address those needs, I think we're in fine shape.
    Senator Boozman. Thank you, Mr. Chairman. I apologize to 
Senator Udall for running a little bit long.

                 STATEMENT OF HON. TOM UDALL, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Udall. Well, I thank both of you and thank the 
panel. This has been a very good panel. I attended the last 
hearing, and I thought it was excellent. And I appreciate, 
Chairman Rockefeller, you showing such an interest in this.
    I remember last time the National Academy of Sciences 
report. I think that came out in 2009, is that correct? And 
that report, I think it was called Strengthening Forensic 
Science in the United States, A Path Forward, had some very 
concerning conclusions in it, state of forensic science, the 
lack of scientific foundation behind forensic science 
disciplines, lack of standards in laboratory techniques, and it 
went on and on and on.
    I'm wondering, in the opinion of the panel, since the 
report came out, and you would think a report like this would 
kind of shake things up a little bit and move the ball down the 
road, have there been concrete accomplishments that, in your 
mind, Dr. Lander, you've followed this for a long time, 23 
years it says in your testimony, Mr. Gallagher, same question.
    I don't know, Mr. Suresh, if you feel you want to answer on 
that, or is this just a report that sits there and gathers a 
lot of dust and nobody listens to it? What's the----
    Dr. Lander. Well, let me first say, with regard to the 23 
years, I became involved 23 years ago in this case and have 
been interested in this since then. It's not a field that I 
have worked in continuously there. I have other things I do, 
but, as an observer, I'll answer your question.
    That 2009 report was deeply disturbing. It really did point 
out, as the chairman said, that there are a lot of areas where 
our evidentiary foundation is a lot weaker than we thought. I 
frankly would have thought it might have provoked more action.
    I think, though, it has not sat on the shelf and gathered 
dust either. I think we're in the process in these couple of 
years of digesting a worrying conclusion and figuring out what 
to do. I think we've taken long enough to figure out what to 
do. I think it's clear that the what-to-do involves this 
collaboration with real responsibility tasked in science 
agencies and real responsibility tasked in DOJ, and it's time 
to act.
    Were this to go on for a lot longer without meaningful 
structural response, I would be quite worried, but I think it's 
been a good process. I know here in the legislature and in the 
executive branch and out in the field, both of scientists and 
forensic labs trying to think about how to proceed. One 
shouldn't go too quickly to jump to a solution, but one 
shouldn't go too slowly either. It is time to act.
    Dr. Gallagher. So I think the honest answer to your 
question is it probably depends upon how you're looking at it. 
The academy report had sort of two elements to it. One was a 
structural recommendation to form a new agency, and within that 
structure it called for a whole list of specific areas to be 
addressed.
    And, of course, the problem I think we ran into was that 
the structural solution was the only one in the report and it 
wasn't one that was viable or deemed viable.
    So the question is in addressing a structural solution that 
answers the problem without falling to a new agency, that is 
probably not something that's done yet. It's been very active, 
but it's fair to be impatient.
    However, if you look at the 15 or 16 areas underneath, they 
have spurned probably the most active interagency process I 
have seen in my 18 years of government. In fact, what's 
striking is it's much broader than just Federal involvement. We 
have representatives from state crime labs and other experts 
involved directly in the Federal interagency process, and 
they've made a lot of progress in addressing certification 
requirements and a whole list of other things, so that once the 
structural answer is put on the table, we're ready to roll. And 
so it's kind of mixed.
    Dr. Suresh. I can point to three or four different 
activities that are evolved or continuing to evolve in response 
to the NRC report. One is the two workshops that I mentioned, 
one on cognitive bias. The other one is on nanotechnology and 
forensic science. These workshops were organized and supported 
by NSF in response to NRC report. So that's the first one.
    The second is, I mentioned in my opening remarks the 
memorandum of understanding that's in the works between NSF and 
NIJ, and that's something that's a direct outcome of the NRC 
report.
    The third is the activity that is part of the National 
Science and Technology Council Subcommittee on Forensic 
Science, and there are several possibilities there. One is to 
develop a White Paper that summarizes recommendations to 
achieve the goals of the NRC report. The other one would be to 
create a prioritized national forensic science research agenda. 
A third would be to draft a detailed strategy for developing 
interoperability standards. At least a discussion is taking 
place through NSTC. So those are four tangible outcomes 
following the NRC report.
    Senator Udall. Thank you.
    And I think, Chairman Rockefeller, your efforts here at the 
Committee, I think, have spurred things to move along. And I 
think we need to get to the point where we get an 
organizational part of this, as you just talked about, that's 
really going to come to grips with it and take advantage of all 
the energy that's going on out there in this respect. Thank you 
very much. Thanks for your attention.
    The Chairman. You were a prosecutor.
    Senator Udall. I was a prosecutor. That's correct, both at 
the, at the Federal level, I was Assistant United States 
Attorney and prosecuted criminal cases.
    I was thinking the same thing that you said. I always had 
the impression when we went into court that the judge was the 
arbiter over the science. And you had the sense that, you know, 
and the rules all say that, that the judge, he makes sure that 
the best scientific information comes in, and whenever it's 
fingerprint evidence or whatever.
    And you get the sense as a prosecutor, well, that's up 
there with the judge, and if he lets it in, then it's all going 
to be fine. And, as a prosecutor, you're working with the law 
enforcement people and they're doing the same thing they've 
done day after day and have been allowed to do.
    And so it's kind of a shock when you read the kinds of 
things in this report that, whoa, this is very different than 
the sense of prosecuting a case. I mean, you really need to 
look behind.
    And I'm glad we're doing this, because I think it's 
important, very important. So thank you for your work on this, 
Chairman Rockefeller.
    The Chairman. No, but that's interesting that you have that 
same----
    Senator Udall. Yes.
    The Chairman. It hinders us enormously as policymakers.
    Senator Udall. Yes.
    The Chairman. If you, as a prosecutor, had that feeling 
about a judge, and then one could start doing an analysis of 
juries. Not allowed to do that because that's called the 
American system. They have a right to be wrong, right? You 
don't have a right to be wrong.
    Senator Udall. Well, and the juries, Chairman Rockefeller, 
my understanding, talking with some of my old friends that have 
stayed in prosecution, is the juries are watching these crime 
shows so much now that the crime shows are impacting what 
juries think should be produced by prosecutors in the 
courtroom. And if they don't produce all the fancy things that 
they see on television, they think there's something wrong with 
the case and they think there's reasonable doubt there and they 
throw the case out. So, I mean, we have another problem there 
when it comes to juries.
    The Chairman. Is that why you ran for the Senate?
    Senator Udall. I got out of all that business. No, it isn't 
exactly why I loved it, but it's a tough business, the 
prosecution arena, and trying to get focused on, and the 
obligation as a prosecutor, different from a defense attorney, 
is to do justice. And so you know in the daily activities that 
you carry out that's the ethical obligation on you, and the 
idea that the science isn't quite there on some of these 
techniques is pretty disturbing.
    The Chairman. It is. It is.
    Senator Udall. Yes.
    The Chairman. But that's valuable stuff.
    Senator Udall. Yes.
    The Chairman. I'm going to ask sort of a weird question, a 
catchall, and I hope it comes out the way I hoped it would, but 
it may not.
    Dr. Suresh, you have a pretty decent budget, and you spend 
approximately $50 million over 3 years on forensics? See, now 
that's two-tenths of a percent of your budget. I would appear 
to be critical, but I'm sort of setting the scene here, OK?
    You've done, in fiscal 2010, 13,000 awards, and I'm trying 
to figure out each of the three of you or the two of you, how 
do we sort of pull this whole thing together? It means that you 
have to have the proper funding, but if you have the proper 
funding you've got to use the proper amount of funding of that 
proper funding for forensics.
    And the EPSCoR program, which I'm thoroughly familiar with, 
gets it out into the New Mexicos and the West Virginias and the 
Arkansases, and before it all went to Harvard, Yale, Princeton, 
Stanford. I remember that fight with Dr. Eric Bloch. It was not 
pleasant.
    Then NIST, NIST, I look upon as NIST is being kind of the 
decider. NIST is right. Others can make mistakes, but NIST 
doesn't make mistakes, because you do what Dr. Lander said. You 
just keep pounding away at the science until you've got the 
genome bands or they're too close or they're not close enough, 
but you figure that out and you do that. Am I right?
    Dr. Gallagher. That's right. And----
    The Chairman. Don't answer the question.
    Dr. Gallagher. Yes. That's right.
    The Chairman. I'm still formulating. I'm formulating my 
question. I'm not sure how it's going to come out.
    And then I go to Dr. Lander, and anybody who's a deputy to 
your boss has to be a perfect person. I think John Holdren's 
one of the great people in government. He doesn't have to do 
it, you know. He just does it because he loves it. So you're 
kind of pointing to those two and saying, well, let's make this 
happen.
    And then we run into what I've run into so many times when 
I was Governor, the county law enforcement system, the city law 
enforcement system, the FBI law enforcement system, the 
intelligence community. There are 18 different agencies of the 
Federal government that collect intelligence.
    And, after 9/11, the first law we passed, to our 
everlasting shame, but thank God we did it, was to allow the 
CIA to talk to the FBI. They were not allowed to talk up until 
that time. And in that story is a lot of the 9/11 Commission 
tragedy, because the dots were there and they could have been 
connected, but they weren't because they couldn't talk.
    So that means that people have to give up stovepipes. They 
have to be willing to share. Sharing is not a human 
characteristic. In government, it's sort of miserable, and I 
think in corporate life it probably is, too. I don't know that. 
In families, it's often very hard, you know, to share. In other 
words, to give up to get to the desired result.
    So I want each of you to figure out a way, tell me how we 
get to the point. Because, in the meantime, until all of this 
is put in place, until the--I mean, I'm still trying to get 
over the software thing, because if you can't trust software, 
what you're saying is you can't trust people. If you can trust 
people, you can trust software. But then I've got to get 
through people and software before I can relax, and, in the 
meantime, we're sending people to prison or sending them to the 
chair or we're not.
    Dr. Lander. We're not catching them.
    The Chairman. We're not catching them, right.
    So how is this puzzle put together in a way which is 
practical? Actually, I don't insist on that, because, I mean, 
people are just, in the intelligence community, beginning to 
share. They're beginning to share. We're finding that now in 
cybersecurity, still. In the Senate, we have committees that 
won't share with each other because they're jockeying to hold 
on to their jurisdiction. So something gets dropped.
    I mean, human behavior is not admirable. So how do we put 
this thing together?
    Dr. Lander. I'm happy to start here.
    The Chairman. OK.
    Dr. Lander. Happily, I think this is simpler than many of 
the situations you referred to, Mr. Chairman. The ability to 
light the fires of excitement in the scientific community is 
really pretty great.
    The Human Genome Project, a clear agenda was put out by 
this Congress in the late 1980s. It said, we need to get the 
sequence of the human genome. We could somehow get the sequence 
of the human genome. It brought into science a generation of 
young people, myself included, who said this was exciting. 
People identified that agenda as important.
    The single most important thing in marshaling science 
behind some public purpose is the clear setting of an agenda. 
And that isn't as hard as it seems. If the law enforcement 
community and these science agencies came together in an 
appropriate structure, some advisory committee, some task 
force, some something, which was tasked with identifying where 
are the biggest gaps in forensic science. What are we missing 
right now to write the software that we need or build the 
machines? And you state that clearly to the scientific 
community, you unleash the minds of a new generation.
    So we have problems with hair. Great. Let's get that out in 
front of the scientific community. And what you're going to 
find is labs in West Virginia and kids in Berkeley, and, you 
know, older scientists in Maine who are going to say, oh, is 
that really an important problem? Let's get on the web a 
database of 10,000 hairs and let's set an X prize, a challenge, 
who can get the best program to identify those hairs.
    It'll turn out probably to be cheaper than you imaged 
because when you unleash that creativity around each of these 
problems, we're going to see software, we're going to see 
clever new methods.
    Right now, what smart young scientist coming along knows to 
think that these are really important problems that our 
government cares about?
    I think if you got NIST and NSF together with DOJ in an 
appropriate structure setting that scientific agenda, you would 
see tremendous returns on that investment, because it isn't 
about government stovepipes. In the end, it's about unleashing 
creative energies. They'll write applications to the NSF 
saying, oh, I want to work on this. I'd put their energy there.
    Get a clear agenda out there about our greatest needs. And 
that's where the DOJ is crucial. The DOJ will know. The 
prosecutors will know what are our greatest needs right now.
    NIST will be able to say, in order to do that, what science 
might we have. NSF will be able to talk to its community and 
say, we have funding mechanisms for really meritorious 
applications. And you, your committee and the Congress, will be 
able to supply an appropriate amount of funding to make sure it 
gets done, I hope.
    The Chairman. But you would have the final definition.
    Dr. Lander. I would have a clear agenda out there. If you 
state an agenda of the worthy challenge problems, in this 
country, the scientific community rises to meet challenges.
    The Chairman. But, then, it puts its results, in whatever 
fashion, into the hands of NIST as the dispenser.
    Dr. Lander. Indeed. Yes. So then the mechanism to go from 
scientific discovery to the setting of standards must pass 
through NIST. You don't want the kid in Berkeley or the 
scientist here or there turning them into the standards. That's 
what we have NIST for.
    The Chairman. Right.
    Dr. Lander. But you need the science underlying it. You 
then need NIST to turn it into standards, and you need the DOJ 
to be able to turn that into promoting the adoption across our 
justice system.
    The Chairman. Dr. Gallagher, what forces the community at 
large, God, I'm over time, by a lot. What forces the world at 
large, the legal world at large?
    Senator Udall. You're the chairman.
    Senator Boozman. He's never over time.
    The Chairman. You can't leave, Tom. You're a prosecutor.
    Senator Udall. I will stay here for 5 minutes.
    [Laughter.]
    The Chairman. I am undeterred.
    How do you get the NIST exactitude standard out to where it 
will be understood in Albuquerque and Welch, West Virginia, and 
accepted in those places? Because they have their own, you 
know, the state has its own labs. Maybe the county has its own 
labs. I mean, counties do, don't they? They have coroners and 
forensics. They have that stuff, larger ones, at least.
    Dr. Gallagher. I have two senses about this problem. One is 
that this problem is not as difficult, in my opinion, as some 
of the ones you alluded to. In fact, I remember during my 
confirmation we were talking about cybersecurity, and I told 
you NIST had to work with NSA and DHS, and you said, oh, my 
gosh. But, in fact, that's working actually quite well. And I 
think, in this case, I have to say, in my opinion, a 
multiagency answer is probably better than the single agency 
answer that was in the academy.
    And the reason for that is if you map it across two 
agencies, let me just focus on NIST and the Department of 
Justice, the focus of NIST will be on the integrity of the 
measurement. And we're not really influenced by the application 
of it.
    Whereas, the whole role of the Department of Justice is to 
apply that measurement to prosecute crime and to promote 
justice. Those are complementary roles, and, in fact, if you 
combine them into one place, they could actually create 
tension, which is part of what we see in the system right now.
    So this is a case where NIST being the technical non-
regulatory, the nerds, in support of the people who have to 
apply it is actually a good construct. And you asked the right 
question, which is, ``OK. NIST does its work and let's say 
we've articulated that this appears to be the right basis for 
doing this measurement, and here's how we recommend that it's 
done. How do you drive it into practice?''
    And it's a combination of carrots and sticks. You have to 
facilitate the adoption. In other words, you have to put it 
into the language, bake it into the technology, make it 
consumable by the people who have to do these measurements.
    The other thing is that you have to force the adoption, in 
some sense. Somebody has to be the adopter-in-chief, and, in 
this case, we have this very complicated Federal, state and 
local problem.
    My view is that the Federal adoption actually is a huge 
ingredient here, that if the Department of Justice becomes the 
adopter for the Federal law that it's going to have an enormous 
impact on the states and local jurisdictions. And we can 
facilitate that adoption if we've brought the state and local 
participants in from the beginning, so they see their own 
involvement in the process as well.
    And I know the Department of Justice shares that view with 
me. So we bring them along from the beginning and then the 
Department of Justice can manage the requirement-setting on the 
Federal side, and that will, I think, have a very profound 
impact on adoption.
    The Chairman. OK. Well, in sheer embarrassment I go to 
Senator Boozman, hoping that Senator Udall won't leave. He is.
    Senator Boozman. And I'll yield to you if you've got a 
question or comment. Go ahead.
    Senator Udall. No, no. Well, I just want to thank both of 
you. I know you're taking a real interest in this, and this is 
such an important issue. I think back to doing prosecutions and 
you'd call experts. You know, you'd get an expert. Everybody'd 
say, well, you need an expert in whatever it was. Let's just 
say hypothetically hair. And an expert would go out, and you'd 
get the best one, and then everybody would say, well, whatever 
he says, it's going to go into evidence and it'll get into 
evidence on your criminal case.
    Well, what you all are telling me, and what this report is 
opening my eyes on is that it may well be he was a very, very 
good expert, but the real question is did he really have the 
depth of science to back it up? And that's what I think we're 
exploring today, and I think it's very important.
    So that's just my final comment. I apologize to Senator 
Boozman for stepping out on him, but I really appreciate both 
of you----
    The Chairman. No, he insisted that you ask a question.
    Senator Udall. Yes. Yes.
    The Chairman. I was the one who was arguing.
    [Laughter.]
    Senator Udall. Well, you're both very generous. Thank you.
    Senator Boozman. Thank you, Tom.
    Secretary Gallagher, if I'm understanding, then we 
potentially have an entity that gives guidance and helps 
collaborate, the scientific community and the Federal 
Government, the standards community, all of that gives guidance 
out. And then what you're saying is we don't need to federalize 
this, but the reality is that as we come up with good science, 
if the Federal Government adopts certain things in their 
jurisdiction, then it will follow that that will upgrade the 
whole level, and so I think that's a good point.
    Unlike watching CSI or similar shows where generally, the 
first person there is the coroner, and in probably half of our 
states, those people are elected with no training whatsoever 
and no accreditation. Where does that fall into all of this?
    Dr. Gallagher. So I'm going to give you a short answer and 
then promise to follow up, because I'm also not an expert in 
the medical-legal area, but that has been actually a key 
discussion point within the NSTC process. And there's, in fact, 
a specific subgroup that's looking at qualification standards 
and practices within that community. And I'd prefer to get back 
with you on that one, so I don't attempt to----
    [The information requested follows:]

    In June 2009, Office of Science and Technology Policy (OSTP) 
Director Dr. John Holdren signed the Charter of a new Subcommittee on 
Forensic Science, under the National Science and Technology Council 
(NSTC) Committee on Science, to address the concerns raised by a 
congressionally mandated study by the National Research Council (NRC) 
of the National Academies on the status of forensic science in the 
United States. The NRC report, entitled ``Strengthening Forensic 
Science in the United States--A Path Forward,'' was published by the 
National Academies Press on February 17, 2009 (NRC Report). Among a 
host of other concerns with forensic science practice, the NRC Report 
was critical of the status of the medicolegal death investigation in 
the United States:

        ``What also is needed is an upgrading of systems and 
        organizational structures, better training, the widespread 
        adoption of uniform and enforceable best practices, and 
        mandatory certification and accreditation programs. The 
        forensic science community and the medical examiner/coroner 
        system must be upgraded if forensic practitioners are to be 
        expected to serve the goals of justice.'' [NRC Report, p. 15]

    The NSTC Subcommittee on Forensic Science Accreditation and 
Certification Interagency Working Group has been tasked to analyze the 
issue of medicolegal death investigator certification. We anticipate 
its recommendations will be submitted to the NSTC's Committee on 
Science in the fall for consideration.

    Senator Boozman. No, I appreciate it, and, again, you all 
can comment if you like, but it does seem like that's an 
integral part of the whole thing, that it's something else. And 
I think our crime labs would also like some advice and input in 
that regard, because it makes it very difficult, especially in 
our smaller communities where many times that entity is looked 
to, and, yet, in many of our states there's no training at all.
    Well--yes, sir.
    Dr. Suresh. I just wanted to add a couple of points to the 
comment that the chairman made about NSF's ongoing investments. 
The 147 projects or so amounting to about $50 million that I 
mentioned were identified by doing a search with the term 
forensics. So there is a lot of funding that NSF provides which 
feeds into this, but it's not directly aimed at forensic 
science.
    For example, we fund genetics and genomics research in our 
Biological Sciences Directorate. The basic discovery there has 
a lot of potential implications for forensic science. So that's 
background basic research.
    Likewise, in the computer and Information Science and 
Engineering Directorate, there is a lot of funding that goes 
into data analytics, image processing. Those kinds of things 
have huge implications for the development of forensic science 
within the NSF context.
    So if I were to look at basic science funding with the 
implication for forensic science, it's likely to be a lot more 
than $50 million. So I just wanted to mention that.
    Senator Boozman. Good. Again, thank you all for being here. 
Your testimony today has been very, very helpful to me. And we 
do appreciate the collaboration that we really are seeing. 
Again, I was really very pleasantly surprised in the sense that 
I knew that some of that was ongoing, but I think we really 
are. However, we all have some frustration that we haven't 
perhaps outwardly moved as far forward as we'd like to on the 
2009 report.
    But I think that it appears that there has been a lot of 
work behind the scenes that really is moving in that direction.
    And this, as the Chairman has pointed out so many times, is 
such a high stakes thing, and this is so important that we get 
this right. But we have to get it right so that it'll transfer 
again down to the small communities in Arkansas and West 
Virginia where they just don't have the resources.
    In fact, we could probably have another hearing, Mr. 
Chairman, just on the backlog now of the crime labs dealing 
with stuff that we all agree that they're dealing with in a 
very appropriate manner, but the backlog, in some cases, is 
tremendous because of lack of resources.
    So thank you, Mr. Chairman.
    The Chairman. OK. And thank you.
    Can I just ask one more question, and that is I've got to 
restore some semblance of confidence in something called 
software, and, at this point, it's crash landed in my mind, 
because it's written by people.
    And, on the one hand, I'm thinking of those, you know, when 
you Google typography and then you can make valleys disappear 
and turn into mountains or go back 1,000 years and get what it 
was like then, and just absolutely amazing things, which take 
tremendous disciplined brain power, and yet those are written 
by humans, but, on the other hand, those aren't case specific. 
They're just general information.
    So to make software appropriate to individual cases that 
come up and so that somebody doesn't get put away for the wrong 
reasons, can software be developed for that?
    Dr. Lander. Sure. Software is just rules made faster. 
There's nothing a piece of software can do that you couldn't do 
yourself with a pencil and paper and enough time. They are just 
the embodiment of rules in a machine.
    The problem is rarely with the software. It's with the 
choice of rules you put in there. Put good rules in there, good 
search rules in Google, you get good search results. Lousy 
search rules, you don't find what you want on the web. Put good 
rules there about those matching DNA bands or about hair, 
you'll get good matches and a statement about how good those 
matches are. Now, there's a 20 percent chance it's wrong or a 1 
percent chance it's wrong or a one-in-a-million chance it's 
wrong.
    Don't worry about the software. I'm confident that good 
software can be written. It's all about the rules. Rules come 
from the knowledge. If we get the knowledge right, then NIST 
will be able to write standards, which are those rules, and 
then the software folks will be able to produce the software 
you want. We trace it back there to the real source of the 
issue.
    The Chairman. My confidence was restored, which probably is 
a good point to end the hearing on.
    Thank you all very, very much for being patient and very 
edifying.
    [Whereupon, at 4:02 p.m., the hearing was adjourned.]
                            A P P E N D I X

   Prepared Statement of the National District Attorneys Association 
                                 (NDAA)
    Chairman Rockefeller, Ranking Member Hutchison, members of the 
Committee, thank you for allowing us to submit a ``Statement for the 
Record'' for this important hearing on behalf of the National District 
Attorneys Association (NDAA), the oldest and largest professional 
organization representing over 39,000 district attorneys, state's 
attorneys, attorneys general and county and city prosecutors with 
responsibility for prosecuting up to 95 percent of all criminal cases 
in the United States.
    During the hearing a question was posed to the effect of the 
leverage which may exist whereby any standards adopted federally could 
be ``forced'' upon the states. The choice of words may have been 
unfortunate. Nevertheless it makes a point about the nature of the 
collaboration that must exist if such an effort is to be successful. 
The collaboration must not be solely limited to NIST, the NSF and the 
Federal forensic community. As pointed out, there are an estimated 400 
forensic laboratories in the United States and approximately 380 of 
those laboratories are State and local laboratories while the remaining 
labs represent Federal and private forensic laboratories. NIST, the NSF 
and our Federal partners in the forensic community all have a role to 
play in this effort, but none greater than that of state and local 
laboratories that are charged with analyzing evidence in what accounts 
for over 95 percent of the crimes committed in this country.
    This collaboration can be performed successfully, as evidenced by 
the DNA Advisory Board within the Department of Justice which had 
participants from NIST and other Federal, state and local partners. 
That effort and the lessons we learned can be duplicated here as well.
    During the hearing, Senator Udall posed the question whether since 
the release of the 2009 National Academy of Sciences report there had 
been any concrete accomplishments toward improving the state of 
forensic science. It should not be overlooked that the legislation 
requesting such a study was sought and supported by the forensic 
science community. We can be proud to report that their have been 
significant accomplishments and those efforts actually predate the 
report itself. The National Academy report singled out for particular 
criticism three forms of analysis--serology, bite mark and microscopic 
hair analysis. Most of the exoneration cases which identify forensic 
science as a contributing factor involved those forms of analysis. Most 
of those cases occurred prior to the existence of forensic DNA typing 
in 1985 or its ready availability in this country around the mid 1990s. 
However, their use by the forensic science community has been extremely 
limited for a number of years.
    Consider, for example, microscopic hair comparison that Dr. Lander 
testified to, where certain physical characteristics were compared. He 
testified that it was subsequently determined in a study that in 
approximately 1 out of 8 comparisons examiners would reach a conclusion 
that there was a ``match'' between known and questioned hairs. Using 
mitochondrial DNA testing it was determined that in170 hair 
examinations, 1 in 8 hairs believed to match did not come from the same 
source. That study was conducted by scientists from the FBI and the 
Forensic Science Initiative of West Virginia University. That study was 
published in 2002. Thereafter, microscopic hair comparison has been 
limited to serving as a ``screening'' test for purposes of identifying 
cases in which mitochondrial testing of evidentiary hairs would be 
appropriate.
    Forensic odontology has long been utilized within the forensic 
community, most notably as a method of identifying human remains. Bite 
mark evidence is another aspect of the work of a forensic odontologist. 
The most noteworthy case in which bite mark evidence was used was in 
the prosecution of Ted Bundy in the state of Florida. However, with the 
advent of DNA profiling, bite mark evidence has been relegated largely 
to those cases in which a swab for saliva in the area of the bite mark 
has not yielded DNA sufficient for testing. That has been considered 
best practice since at least 1997. As reference, please see Manual of 
Forensic Odontology, 3d. Ed. American Society of Forensic Odontology 
(revised 1997).
    Serology has likewise been relegated to use as a screening tool 
within the forensic laboratory almost from the day forensic DNA 
profiling became readily available within this country. The science of 
serology is interesting however because it is well researched and its 
limitations are well known within the scientific community. It 
continues to be used today in hospitals across the country. It is well 
validated.\1\ The reason that serology has been replaced for 
evidentiary purposes is that it lacks the powers of discrimination 
between individuals that DNA testing provides. A simple blood type, for 
instance, may only narrow the range of potential suspects to 
approximately 40 percent of the population. The problem with the 
serology cases was not the science so much as the competence or 
integrity of the scientist, the prosecutor or the defense counsel.
---------------------------------------------------------------------------
    \1\ Some confusion exists within the general public with respect to 
the terms ``validated,'' ``invalidated'' and ``unvalidated.'' 
Validated, as Dr. Lander described it, is that process of testing and 
retesting in order to identify the limitations of the reliability of a 
technique or measuring system. Invalidated means that something has 
been tested and the results of testing show the conclusions to be 
unreliable. Unvalidated means that there is a lack of sufficient 
testing necessary to render a conclusion as to the reliability of a 
measurement, test or conclusion. Unvalidated and invalidated are not 
synonymous. Testing and being found to be true or false is one thing, 
never being adequately tested is something completely different.
---------------------------------------------------------------------------
    The commitment of the forensic science community for reliable 
science is evidenced by its investment in the accreditation process. 
Three organizations currently accredit forensic laboratories within the 
U.S. \2\ Virtually all public laboratories are accredited today. ASCLD-
LAB has accredited an estimated 380 such laboratories, Federal, state, 
local, private and international. Most of those laboratories were 
accredited before 2009. The National Academy report recommended 
accreditation to a recognized international standard for accreditation 
(ISO 17025). Accrediting bodies in this country were in the process of 
accrediting laboratories to that standard before the Academy report was 
published. An estimated 180 labs are already accredited to that 
standard by ASCLD-LAB with the remainder in the process of becoming so 
accredited.
---------------------------------------------------------------------------
    \2\ Forensic Quality Services, American Society of Crime Laboratory 
Directors-Laboratory Accreditation Board and A2LA.
---------------------------------------------------------------------------
    It is NDAA's belief that non-DNA forensic science disciplines have 
been demonized in recent years because their reliability is not up to 
the ``DNA Standard'' seen on popular television shows like CSI. 
Unfortunately, real world examples of cases tried on television are few 
and far between. Some cases have DNA, but most cases do not. As stated 
on the Innocence Project's website (www.innocenceproject.org), since 
1989 there have been 289 post-conviction DNA exonerations in the United 
States. While NDAA agrees that even one wrongful conviction of an 
innocent person is too many, this number needs to be taken into proper 
context to gain an accurate portrayal of the state of forensic science 
in America's criminal justice system.
    In the United States there are, at minimum, 10 million cases per 
year (not including traffic offenses) where serious crimes have been 
committed. This means since 1989 there have been at least 220 million 
cases in America involving serious crimes: while 289 post-conviction 
exonerations are of real concern to NDAA, in reality these wrongful 
convictions occurs less than one-hundredth of 1 percent of the time in 
America's courtrooms.
    Many stakeholder groups point to these 289 post-conviction 
exonerations and reactively conclude that America's use of forensic 
sciences in the courtroom is suspect and the system is irreparably 
broken. NDAA could not disagree more with this notion; it is important 
for us to remember that the vast majority of the time during criminal 
cases--more than 99.99 percent of the time--the prosecutor properly 
serves justice and gets the case right. That said, NDAA fully supports 
improvements to forensic science and agrees that Federal resources be 
used to improve the quality and reliability across all forensic science 
disciplines.
                                 ______
                                 
Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                        to Eric S. Lander, Ph.D.
Good Science Leads to Good Law Enforcement
    Question 1. The crime writer John Grisham was the most famous 
witness at our December hearing. But I thought some of the best 
testimony came from a former Federal prosecutor named Geoffrey Mearns, 
who was a member of the National Academy of Sciences' committee that 
reviewed the state of forensic science. At the Department of Justice, 
Mr. Mearns prosecuted many high-profile cases, including the Oklahoma 
City bombing.
    As a prosecutor, he said he always assumed that evidence used in 
the courtroom was based on objective scientific analysis. But after 
studying the issue as part of the National Academy's review, he told us 
his faith was shaken. Mr. Mearns testified that he ``came to realize 
that there was not nearly enough genuine science to validate many 
forensic science disciplines.''
    In your testimony, you talk about how law enforcement officials 
were at first reluctant to work with you on developing standards for 
DNA testing. Can you explain how you convinced them that scientific 
standards were good for our criminal justice system?
    Answer. The change was driven by necessity. Law enforcement 
officials had originally rejected as unnecessary a proposed study of 
DNA forensics by the National Academy of Sciences. Then a high-profile 
case revealed serious flaws in the practice of DNA fingerprinting, with 
both prosecution and defense witnesses ultimately agreeing on the 
problems. Law enforcement officials then became concerned that these 
findings might jeopardize the use of DNA fingerprinting, and then 
agreed that setting higher standards was desirable.
    The recent NAS report on problems with forensic science should have 
been a similar wake-up call. But there has been continuing resistance.

    Question 2. Can we have a fair justice system while we are waiting 
for the science of forensics to catch up?
    Answer. Yes, but . . .
    The justice system can be fair provided that the reliability of 
forensic testimony is accurately described. For some forensic 
disciplines (such as bite marks), this would involves telling juries 
that the evidence is scientifically unsupported and thus unreliable. 
For others (such as hair analysis), it would require telling juries 
that errors occur at an appreciable frequency (10 percent in an FBI 
study) and thus the evidence is not definitive.
    For too many forensic technologies, we don't know how to evaluate 
the evidence: we don't know the rate of false positives and false 
negatives.
    The integrity and fairness of our justice system is threatened when 
we lack standards, but we allow witnesses to tell juries otherwise.
    It may be best to exclude certain classes of evidence until the 
science and standards catch up.
Scientific Analysis Reduces the Chance of Bias in the Criminal Justice 
        System
    Question 3. The National Academy of Sciences report makes a very 
interesting point about how human error can creep into forensic 
science. It discusses a concept called ``contextual bias,'' which means 
that a forensic analyst's conclusions can be influenced by what he or 
she knows about the suspect or the facts of the case. The report isn't 
suggesting that anybody is acting with intentional bias, but it does 
suggest that a more independent and rigorous scientific approach could 
minimize this problem. What steps do scientists take to limit the 
possibility of ``contextual bias'' in your work? Can you also explain 
why this is an important issue in the field of forensic science?
    Answer. In most scientific situations (not involving forensic 
testimony), scientists take a variety of precautions to guard against 
contextual bias.
    These may include ``blinding'' themselves to the identity/
characteristics and to the changes or treatments given to research 
subjects. For example, in a clinical trial to evaluate a drug, a 
scientist will not know until after concluding an experiment which 
group of patients is the control group that did not get the drug and 
which group of patients is the treatment group that took the drug. This 
will prevent the scientist from being biased toward observing the 
responses in patients that the scientist hopes to see. This is so 
critical that unblinded clinical trials are considered suspect.
    Scientists also follow objective, verifiable methods to test their 
hypotheses against available data. They try only to draw conclusions 
that are supported by the data, and to be cautious not to overstate 
their results.
    Their studies, before publication in journals, typically undergo a 
peer-review process.
    And, it should be possible for other scientists to replicate any 
experiment, and they should draw the same conclusion. Only when science 
has been independently replicated can it be truly considered sound.
    Forensic evidence presented as scientific findings in criminal 
trials often differs in important ways from the process that scientists 
use in conducting studies and publishing their results in peer-reviewed 
journals. For example, forensic experts do not necessarily ``blind'' 
themselves to the identity of the accused or the facts of the case, and 
are not required to demonstrate the accuracy of methods on a larger 
sample. In criminal cases, scientists present evidence that is not 
typically peer-reviewed.
Prizes and Challenges in Forensic Science
    Question 4. The America COMPETES Reauthorization (P.L. 111-358) 
gave broad authority to Federal agencies to use prizes and challenges 
as drivers for stimulating private industry and individuals to solve 
problems of national importance; certainly the forensic science 
community is facing concerns of national importance. What specific 
problems in forensic science do you think are best suited for a prize 
or challenge?
    Answer. Prize competitions involving the broader public could be an 
excellent method to address the challenge of (i) determining the best 
analytical methods to evaluate specific kinds of forensic data and (ii) 
determining the accuracy of those methods (which is critical for 
evaluating their use in courts).
    It might be ideal to focus on the 5 most important forensic 
technologies, as determined by DOC and DOJ and reflected in the NAS 
report. (Examples could include hair, bite marks, bullet marks, and 
fingerprints.)

    Question 5. How would you recommend structuring such a challenge so 
that we achieve the best possible results in the most timely manner?
    Answer. For each type of forensic evidence selected, DOJ/FBI could 
contract with an external party to prepare a very large set of samples 
(many thousands) including associated digital data that could be shared 
without limitation and physical specimens that could be shared with 
qualified parties.
    The samples should reflect the wide range of conditions under which 
evidence is encountered. (For example, for a fingerprinting sample set 
and dataset, the FBI should collect and offer fingerprints that include 
partial prints from many kinds of surfaces, and the full range of type 
of fingerprints collected in criminal cases and beyond.)
    Information about which samples actually match would be known but 
withheld.
    Competitors would be challenged to develop methodologies that would 
be tested relative to known ``right answers''. (Crime labs could 
participate in the competition, as well as scientists and 
technologists.)
    A contest advisory board would be selected by the NAS, based on 
input from FBI and NIST, to oversee the competitions.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Amy Klobuchar to 
                         Eric S. Lander, Ph.D.
    Question 1. I am concerned about the effect of delays in DNA and 
other forensic analysis in criminal cases--delays in forensic analysis 
can prevent law enforcement from apprehending criminals or delay 
exoneration of innocent persons. Can you comment more on this?

    Question 2. From your perspective in the scientific community, what 
factors contribute to delays in analyzing forensic evidence?

    Question 3. Do you believe standards are a way to reduce the delays 
forensic analysis?
    Answer. [Dr. Lander believes he has insufficient knowledge to 
answer these questions usefully.]
                                 ______
                                 
    Response to Written Questions Submitted by Hon. John Boozman to 
                         Eric S. Lander, Ph.D.
    Question 1. Your testimony indicates that DNA forensics was not 
widely accepted by the practitioners of forensic science? Today it is 
widely accepted in the law enforcement and forensic community. What 
specifically changed, in the community of practitioners, to make this 
happen?
    Answer. The change was driven by necessity. Law enforcement 
officials had originally rejected as unnecessary a proposed study of 
DNA forensics by the National Academy of Sciences. Then a high-profile 
case revealed serious flaws in the practice of DNA fingerprinting, with 
both prosecution and defense witnesses ultimately agreeing on the 
problems. Law enforcement officials then became concerned that these 
findings might jeopardize the use of DNA fingerprinting, and then 
agreed that setting higher standards was desirable.
    The recent NAS report on problems with forensic science should have 
been a similar wake-up call. But there has been continuing resistance.

    Question 2. The scientific working groups (SWGs) are currently 
active within the DOJ. I understand some SWGs are more active than 
others. How do you feel about SWGs with NIST oversight, with the both 
practitioners and scientists in this group? How do you think the 
individuals should be chosen?
    Answer. [Dr. Lander believes he has insufficient knowledge to 
answer this question usefully.]

    Question 3. Do you feel that current ISO standards for forensics 
are inadequate? Please give specific examples.
    Answer. [Dr. Lander believes he has insufficient knowledge to 
answer this question usefully.]

    Question 4. Do you think that we need advanced level degree 
programs in the science of forensics? What are your thoughts about the 
current education level and accreditation system for practitioners? In 
your opinion, what are the current needs in this area?
    Answer. [Dr. Lander believes he has insufficient knowledge to 
answer this question usefully.]
                                 ______
                                 
Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                          to Dr. Subra Suresh
Forensic Science Pipeline
    Question 1. A healthy forensic science pipeline supports basic 
research, development of practical applications, as well as training of 
students and practitioners. I am particularly interested in education 
of students because the Bureau of Labor Statistics projects a 20 
percent increase in jobs for forensic science technicians alone by 
2018.
    Dr. Suresh, your written testimony describes activities NSF is 
supporting to expose students to forensic science research. However, as 
I understand it, there are no Ph.D. programs in forensic science. How 
does this contribute to the fundamental problems in forensic science 
research?
    Answer. The National Science Foundation supports basic research and 
education in all fields of fundamental science and engineering. Many of 
the research projects that are supported contribute to scientific 
advances that ultimately contribute to the scientific basis for 
forensic analysis. While many awards are made to senior research 
personnel, a significant number of awards are made each year directly 
in support of doctoral research by students with forensic science 
interests that will advance the application of science in forensic 
settings. For instance, an award was made to Louisiana State University 
in support of doctoral student's research titled ``Using GPS to Track 
Vultures in Texas.'' As the student explains in the application for 
funding, understanding the behavior of vultures over time and space and 
its relation to decomposition of remains, will improve the efficiency 
and accuracy of forensic estimation of time-since-death. Other doctoral 
research is less obviously tied to forensics, but nevertheless advances 
those sciences. An award to an anthropology doctoral student at Johns 
Hopkins University titled ``Environmental Effects on Human Cranial and 
Postcranial Sexual Dimorphism'' will contribute valuable data that can 
assist forensic scientists in determining the sex of skeletal remains.
    Often science and engineering doctoral students conduct research 
while supported by awards made in support of their mentors, and many 
research projects supported across the foundation are budgeted to 
assist in supporting graduate students. Thus, a collaborative research 
project on nuclear data measurements and radiation detector 
development, funded at Duke and North Carolina A&T State Universities, 
contains funds for support of undergraduate, graduate and post-doctoral 
students. This research may advance nuclear forensics, an increasingly 
important area in countering terrorist threats, and is but one example 
of basic research that holds promise for forensic application and 
contributes to workforce development. Examination of high impact 
publications in the forensic sciences shows that authors of most 
frequently cited articles are based in basic science research programs. 
Clearly, students and senior researchers in these basic science 
settings provide results and methodologies that inform the forensic 
sciences.

    Question 2. Your written testimony points out that the Foundation's 
forensic science awards are spread out over all seven directorates. Is 
this a good thing? Would a specific forensic science program at NSF 
help to consolidate the work and attract additional worthy research 
proposals?
    Answer. A crucial strength of the National Science Foundation is 
that it supports basic research in all fields of science and 
engineering. Scientists submit research proposals to standing programs, 
or increasingly to interdisciplinary programs, and the proposals are 
reviewed via high quality merit review. Through its gold standard merit 
review process, NSF brings research to bear on a number of timely 
national problems.
    The forensic sciences constitute an exceedingly diverse set of 
investigatory areas ranging from anthropology to zoology. While there 
certainly are some challenges within forensics that could, or already 
do, benefit from collaboration across the traditional academic 
stovepipes, many of the forensic sciences are quite distinct in their 
theoretical bases and methodological approaches. Creation of a forensic 
science program which received competing proposals in, for instance, 
analytical chemistry and forensic anthropology would bring very 
different research projects into competition with each other.
    NSF does utilize a wide array of mechanisms in support of cutting 
edge, transformative research and several of these have already been 
applied to proposals with forensic science significance. Co-review of 
proposals that intersect two or more standing programs is a long-
standing practice within the foundation and awards which contribute to 
the forensic sciences have been made with the support of several 
programs. Programs in three divisions across two directorates supported 
a project (``Cyber-Enabled Chemical Imaging: From Terascale Data to 
Chemical Imaging'') that will assist in providing detailed information 
on the chemical composition of substances found on surfaces--a 
capability of significant utility in forensic analysis. Additionally, 
many programs are by their very nature interdisciplinary in character. 
The Law and Social Science, a program with roots in a number of social 
and behavioral sciences including sociology and psychology, is 
supporting research on overcoming obstacles to the successful use of 
forensic age progression. This research utilizes information and 
theories from anthropology, computer science, developmental sciences 
and psychology with an ultimate aim of improving the utility of this 
forensic technique.
    However, we are aware that more can always be done. Subsequent to 
publication of the National Academy's report Strengthening Forensic 
Science in the United States: A Path Forward'' (http://www.nap.edu/
catalog.php?record_id=12589), the Social, Behavioral and Economic 
Sciences Directorate (SBE) supported a workshop on cognitive biases in 
forensic examination. SBE, possibly in conjunction with the Computer 
and information Sciences (CISE) directorate, is considering another 
workshop in the area of human and computer recognition of patterns in 
forensic settings.
    As stated in Dr. Suresh's testimony of March 28, 2012 NSF might 
also issue a:

        . . . Dear Colleague Letter (DCL) that notifies researchers of 
        the Foundation's interests in supporting activities with 
        potential applications to the forensic sciences. Such a DCL 
        would draw the attention of academic and forensic communities 
        to the potential for utilizing forensic settings as test-beds 
        for asking basic research questions. Some psychology 
        researchers, for instance, have already begun to utilize 
        forensic laboratories as settings for asking basic questions 
        about human cognition and decisionmaking. The DCL could be 
        designed to encourage collaborative, interdisciplinary teams 
        (to include basic and applied forensic scientists) to develop 
        scientific proposals around the relevant questions. Likewise 
        the DCL could encourage the use of forensic settings for 
        development of new methodologies and instrumentation.

    We are also considering the establishment of internal communication 
mechanisms, such as a Sharepoint site. This would allow staff to share 
information on awards, workshops, publications etc. about research with 
forensic science significance supported across the foundation. Such 
exchanges of information would stimulate coordination and 
collaboration. Coordination and collaboration is not confined to 
internal activities. Several program staff have served on the NSTC 
Subcommittee on Forensic Science. A number have already discussed 
opportunities for joint support of research with the National Institute 
of Justice, the FBI and Department of Defense.
    Thus, there are many current activities, and others which are under 
consideration, that are investments in the forensic sciences and which 
serve to attract high quality research projects.

    Question 3. What are your thoughts about how applying the 
scientific method can reduce the possibility of contextual bias in the 
criminal justice system?
    Answer. The National Science Foundation has begun to address the 
issue of contextual bias and supports basic research in many relevant 
areas, including human cognition and decisionmaking as it may relate to 
the forensic sciences. It is well known within the psychological 
research literature that individuals are susceptible to certain biases 
and preconceptions in the perception and interpretation of stimuli, and 
in the decision processes that lead to such interpretations. The NSF's 
Directorate of Social, Behavioral, and Economic Sciences (SBE) has 
supported research in this area through its programs in Perception, 
Action, and Cognition; Social Psychology; Economics; Decision, Risk, 
and Management Sciences; and Law and Social Sciences.
    In response to the National Academy's report on forensic science, 
the Division of Behavioral and Cognitive Sciences (SBE Directorate at 
NSF) sponsored a workshop to explore the role of cognitive bias in 
forensic examiner decisionmaking. The goals of this workshop included 
stimulating basic research projects among researchers who may not have 
considered the interplay between behavioral science and forensic 
science, as well as identifying applied research projects that might 
improve communication and decisionmaking by forensic examiners. 
Participants offered important recommendations for translating basic 
research on countering cognitive biases including (i) assessment 
procedures that shield investigators from contextual information that 
may bias their decisions and (ii) the use of evidence ``lineups'' that 
require discrimination of a source from that of distractor samples, or 
tasks that require examiners to consider factors that might lead to 
decisions supporting both a ``match'' and a ``non-match'' of a sample. 
Participants noted (i) that additional research would be required to 
successfully translate and refine procedures that might prove most 
effective in the forensic science context, and (ii) that collaboration 
between behavioral scientists and forensic practitioners would be an 
important determinant of success in this context.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. John Boozman to 
                            Dr. Subra Suresh
    Question 1. Has the current administration formulated a consistent 
policy position regarding the science and standards of forensics? If 
yes, please state; if no, when will this policy be announced?
    Answer. The National Science Foundation supports basic research in 
all areas of science and engineering except for the medical sciences. 
Through its gold-standard merit review process, the Foundation 
identifies the highest quality research for support, both in 
traditional academic areas and novel areas which are `high-risk, high-
reward. Establishing administration priorities in science lies with the 
Executive Office of the President's Office of Science and Technology 
Policy. Therefore, OSTP would be the best source of information on the 
administration's policy in forensic science and standards.

    Question 2. It is my understanding that the National Science 
Foundation is currently funding research in forensic science, although 
spread out in several directorates and not underneath one single 
category of `forensic science.' Could you please give me a scope of the 
projects that are currently funded? One of the recommendations of the 
National Academies Report is more `coordination' of the underlying 
science in this area; what practical benefits, from the NSF standpoint, 
do you expect to see from this coordination?
    Answer. A crucial strength of the National Science Foundation is 
that it supports basic research in all fields of science and 
engineering except medical science. As stated in Dr. Suresh's testimony 
of March 28, 2012, all Directorates have funded basic research with 
implications for forensic science. While a description of each award is 
beyond the scope of this response, these awards encompass the variety 
of mechanisms offered by the Foundation, including standard awards to 
scientists at academic institutions, doctoral dissertation research 
grants, research experiences for undergraduates, and major research 
infrastructure awards. The awards also cover a variety of forensic 
sciences, including forensic anthropology, DNA and trace analysis, 
digital forensics, and the various comparative forensic sciences such 
as fingerprinting and forensic authorship identification.
    Within each Directorate, scientists submit research proposals to 
standing programs, or increasingly interdisciplinary programs, which 
are reviewed via high quality merit review. The forensic sciences 
constitute an exceedingly diverse set of investigatory areas ranging 
from anthropology to zoology. Some topics could, or already do, benefit 
from collaboration across the traditional academic stovepipes. However, 
many of the forensic sciences are quite distinct in their theoretical 
bases and methodological approaches. Creation of a forensic science 
program that receives competing proposals in, for instance, analytical 
chemistry and forensic anthropology would bring very different research 
projects into competition with each other. This might well result in a 
reduction in support of the best ideas and projects across the various 
fields that forensic scientists draw upon and inhibit the connection 
between the forensic sciences and the underlying basic research in, for 
example, chemistry.
    Nevertheless, increased coordination of NSF's contribution to 
forensic science research is possible. For example, proposals that 
intersect two or more standing programs can undergo ``co-review'' by 
these programs--a mechanism that has been used to support awards that 
contribute to the forensic sciences at NSF. However, we are aware that 
more can always be done. Subsequent to the National Academy's report on 
forensic science, the Behavioral and Cognitive Science Division of the 
Social, Behavioral and Economic Sciences Directorate (SBE) supported a 
workshop on cognitive biases in forensic examination. SBE, possibly in 
conjunction with the Computer and information Sciences Directorate and 
the United Kingdom's Home Office, is considering another workshop in 
the area of human and computer recognition of patterns in forensic 
settings. As stated in Dr. Suresh's testimony of March 28, 2012, NSF is 
also considering the creation of a Dear Colleague Letter (DCL) ``that 
notifies researchers of the Foundation's interests in supporting 
activities with potential applications to the forensic sciences. Such a 
DCL would draw the attention of academic and forensic communities to 
the potential for utilizing forensic settings as test-beds for asking 
basic research questions.'' NSF is also considering the establishment 
of internal mechanisms, such as a Sharepoint site, to inform program 
officers of research with forensic science significance supported 
across the foundation and thereby stimulate coordination and 
collaboration.
    Coordination and collaboration is not confined to internal 
activities. Several program staff have served on the NSTC Subcommittee 
on Forensic Science. Additionally, a number of program officers have 
discussed opportunities for joint support of research with the National 
Institute of Justice, the FBI, and Department of Defense.
    We believe in the importance of NSF's continued contributions to 
basic science that informs development of the forensic sciences. The 
mechanisms described above could promote further coordination in this 
area and provide critical knowledge that could improve the efficacy of 
forensic practice in the years ahead.

    Question 3. As you know, the fiscal situation in this country is 
very tight. The NSF has many scientific priorities, but the demand for 
basic forensic science research will increase. With limited resources, 
how would you prioritize which areas of forensics will get priority in 
terms of basic science research?
    Answer. The National Science Foundation recognizes that we face 
difficult choices in the face of increased demand for research support 
and constrained resources. In making these choices, we will rely on 
advice and guidance from our Advisory Committees and community-based 
decisionmaking through the merit review process and other mechanisms.
    NSF supports basic research in all fields of fundamental science 
and engineering. Many of the research projects that are supported 
contribute to scientific advances that ultimately contribute to the 
scientific basis for forensic analysis. Advances in virtually all areas 
of science, ranging from anthropology to zoology, may immediately, or 
downstream, lead to important applications in the forensic setting. As 
noted in the response to the previous question, the National Science 
Foundation identifies the most promising projects through the use of a 
merit review system that is held high esteem around the world. Indeed, 
last month NSF hosted representatives from more than 50 countries for 
the first Global Summit on Merit Review.
    NSF review processes provide for submission of research proposals 
by individuals or teams of scientists. The proposed activities are then 
reviewed and assessed against the criteria of Intellectual Merit and 
Broader Impacts, as well as additional, applicable criteria such as the 
integration of research and education. The most compelling projects may 
then be recommended for funding.
    The merit review system ensures that the highest quality projects 
are funded. Any specific proposal may have immediate or downstream 
applications in one or more areas of forensic science. NSF has 
traditionally listened closely to its research communities and 
frequently learns through proposals submitted by investigators about 
their cutting-edge interests. Projects are supported that best 
demonstrate their relevance based on two agency-wide criteria: 
intellectual merit and broader impacts.
    All NSF scientific staff members are continually involved in 
activities such as outreach to scientific communities, attendance at 
scientific meetings and conferences, sponsorship of workshops, and 
interactions with colleagues in agencies with legal and forensic 
missions. Such efforts allow NSF staff to monitor trends, identify 
opportunities and set priorities in concert with the many basic 
research communities that ultimately inform forensic practitioners. In 
addition, workshops may be funded with the purpose of examining trends 
in research, identifying gaps and needs, and recommending priorities.
                                 ______
                                 
Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                     to Patrick D. Gallagher, Ph.D.
NIST and Forensic Science
    Question 1. NIST has an outstanding reputation for doing cutting 
edge work in technology, measurement science, and standards, and your 
written testimony nicely outlines NIST's long and rich history in 
forensic science. My question to you is simple: with NIST's credentials 
in forensic science going back almost 100 years, why do we still have a 
problem today?
    Answer. As outlined in the NAS report, the issues that plague the 
forensic science community are complex. The NAS report describes the 
practice of forensic science in the U.S. as highly fragmented, both 
across jurisdictions and across disciplines. Other contributing factors 
include the lack of uniform oversight and the limited funding available 
for basic research and standards development.
    There are approximately 400 Federal, state and local government 
crime laboratories and more than 90 percent of them fall under state 
and local jurisdictions. There are great disparities among them with 
respect to funding, oversight, personnel certification, and laboratory 
accreditation. For example, the accreditation of crime laboratories in 
the U.S. is still voluntary for Federal laboratories and for crime 
laboratories in 46 of the 50 states. The main barrier to uniformed 
practices of crime laboratory practices across the U.S. is state 
sovereignty, which limits the role that the Federal Government can play 
in the development and enforcement of forensic science regulations.
    Each forensic science discipline applies a unique subset of 
principles from traditional sciences to draw conclusions about evidence 
collected in a case. The quality as well as the degree of foundational 
scientific rigor underlying the practice within each discipline has 
correctly been described as uneven at best.
    Although NIST has a rich history in forensic science, its 
contributions have only sought to address the specific needs of other 
Federal agencies and industry with which it has partnered to date. 
However, as outlined in my testimony, our work has a broad impact on 
the forensic science disciplines with which we have worked. As a leader 
in measurement science, standards, and technology, NIST is a logical 
choice to partner with other agencies and professional organizations on 
a national initiative to lead the U.S. toward improving the practice of 
forensic science in the United States. We look forward to partnering 
with other Federal agencies with complementary core strengths to 
collectively contribute to the future of forensic science.
Scientific Analysis Reduces the Chance of Bias in the Criminal Justice 
        System
    Question 2. The National Academy of Sciences report makes a very 
interesting point about how human error can creep into forensic 
science. It discusses a concept called ``contextual bias,'' which means 
that a forensic analyst's conclusions can be influenced by what he or 
she knows about the suspect or the facts of the case. The report isn't 
suggesting that anybody is acting with intentional bias, but it does 
suggest that a more independent and rigorous scientific approach could 
minimize this problem. What are your thoughts about how applying the 
scientific method can reduce the possibility of contextual bias in the 
criminal justice system?
    Answer. Applying the scientific method is just the beginning of 
resolving the issue of contextual bias in the practice of forensic 
science. As we have seen in a number of recent studies, sources of 
contextual bias are numerous and the solution is multi-layered. In 
addition to the appropriate triage of facts and information selectively 
provided to the forensic science practitioner, there are also processes 
and procedures for quality assurance that must be built into the 
technical review of the first scientist's analytical findings. For 
example, the practice of requiring a technical reviewer to reexamine 
only those cases where the original examiner has made a ``match'' 
between questioned evidence and a suspect in a fingerprint case must be 
prohibited if we wish to achieve true objectivity. The reviewer who has 
the expectation that only cases with ``matches'' will reach her desk 
for review inevitably has contextual bias built into the process. One 
solution is to forward a variety of outcomes to the reviewer including 
cases with exclusions and inconclusive outcomes in addition to cases 
with ``matching'' outcomes.
    NIST has been actively studying the issue of contextual bias and 
other human factors issues. In collaboration with the NIJ, NIST 
convened an expert working group to do a scientific assessment of the 
effects of human factors on forensic latent print analysis and to 
develop recommendations to reduce the risk of error. The recently 
published report, Fingerprint Analysis: Improving the Practice through 
a Systems Approach, (http://www.nist.gov/manuscript-publication-
search.cfm?pub_id=
910745) is the result of a 2\1/2\ year study. It was composed of 
forensic science practitioners, psychologists specializing in 
contextual bias, statisticians, prosecutors, defense attorneys, 
academicians and accident prevention specialists. The working group 
also created a process map (http://nij.gov/nij/topics/forensics/
evidence/impression/latent-print-flowchart.htm) that illustrates the 
latent print examination process, and the report details steps in that 
process where human error risks could be minimized.
    The Expert Working Group on Human Factors in Latent Print Analysis 
and its recently published report serve as an excellent model for the 
other forensic science disciplines. NIST will begin a new panel 
evaluating the human factors issues in questioned documents analysis in 
the coming months. Many forensic science disciplines would benefit from 
implementing this model to identify and help limit the potential for 
contextual bias.
    Response to Written Questions Submitted by Hon. John Boozman to 
                      Patrick D. Gallagher, Ph.D.
    Question 1. What working relationship between exists between NIST 
and DOJ? Do both agencies agree on the clear division of appropriate 
responsibilities regarding this problem? Could you outline, to date, 
some of these activities and briefly tell us what progress this synergy 
has produced? What problems do you anticipate with this type of inter-
agency, ``inter-cultural'' collaboration?
    Answer. NIST and DOJ enjoy a decades old history predating World 
War II of successful collaborations in criminal investigations and 
supporting the development of the original FBI Laboratory. During the 
intervening years, DOJ and NIST have partnered on technology and 
standards development in many areas of public safety, including 
emergency response involving law enforcement agencies, fire 
departments, emergency medical teams, corrections and forensic science 
communities worldwide. DOJ and NIST have numerous formal agreements in 
place articulating the respective roles and responsibilities of the two 
agencies. The synergistic relationship between our two agencies is an 
excellent example of leveraging the core strengths of each agency to 
produce deliverables with benefits to public safety communities that 
exceed what either agency could generate on its own.
    One example includes the response by the U.S. Attorney General to 
the 2003 premature field failure of recently issued body armor that was 
penetrated by a standard round from a handgun that the body armor had 
been certified to stop. In response, the AG created the Body Armor 
Safety Initiative. Under a subsequent agreement, NIST undertook 
research to measure and characterize the root causes of these failures 
and developed testing methodologies to insure that such failures did 
not occur again. The research and collaboration between NIST and DOJ, 
with practitioners and relevant stakeholders, led to the revised 
standard for body armor (NIJ Standard 0101.06), which included testing 
for environmental conditions that had led to the 2003 failure and a 
more robust conformity assessment and accreditation program for the 
independent laboratories conducting body armor testing and 
certification.
    The impact of that ongoing collaboration is enormous. Ballistic-
resistant body armor has been credited with saving the lives of more 
than 3,000 police officers.
    Another example resulted in the research and development of new 
technology to permit DNA identification of a substantial proportion of 
the human remains recovered from Ground Zero at the site of the World 
Trade Center disaster on September 11, 2001. There were more than 
20,000 bits of human tissue and bone recovered, some no larger than a 
fingertip, and most were badly decomposed or partially incinerated. The 
severely degraded condition of these human remains made it extremely 
difficult for the forensic biology laboratory of the New York City 
Office of the Chief Medical Examiner (OCME) and its collaborators to 
obtain interpretable DNA profiles from these human fragments using 
conventional DNA methodologies in practice within crime laboratories in 
2001. DOJ and NIST collaborated and funded applied DNA research to 
develop at NIST a new set of DNA reagent molecules called ``Mini-STRS'' 
that would enable scientists to go back and identify successfully much 
more of the partially degraded DNA samples than ever before. The result 
was a dramatic improvement in the proportion of fragments of human 
remains that could be identified and associated with the known 
reference DNA standards of the victims or members of their families.
    The impact of that ongoing collaboration between DOJ and NIST is 
also enormous. The result of that giant leap forward in forensic DNA 
testing capability contributed significantly to the subsequent 
identification of more than 1,600 victims who perished at the WTC 
disaster on 9/11, many by DNA testing alone.
    There are dozens of other similarly significant synergistic 
outcomes of the successful collaboration between NIST and DOJ in the 
world of testing, accreditation and standards development including 
such forensic science disciplines as fire investigations, drug 
detection, biometrics, firearms/ballistics, and genetics (DNA). This 
partnership benefits from the mutual exploitation of the core strengths 
in each other's agency to the benefit of the entire public safety 
community and society.

    Question 2. The area of forensics is not only interesting 
scientifically, but also very important since the stakes are high. On 
the one hand, we have issues of measurement, but on the other hand we 
have judicial and legal issues. Could you outline some of the 
unintended consequences you and DOJ have encountered so far?
    Answer. As noted above, NIST and DOJ enjoy a decades old history of 
successful collaborations in criminal investigations and supporting the 
development forensic science standards and technology. There has been 
much mutual discussion about the current status of forensic science 
practice in the United States and the impact on judicial and legal 
issues. NIST and DOJ are keenly aware of current issues and challenges 
and our partnership affords us an effective view of matters from both 
scientific and legal perspectives. NIST has subject matter expertise in 
scientific measurement, technology and standards development and DOJ 
has subject matter expertise in judicial and legal issues as well as 
the practice of forensic science. In response to your request to 
characterize the ``unintended consequences'' NIST and DOJ have 
encountered so far, it is accurate to describe the collaboration quite 
to the contrary--highly attuned to the needs of the forensic science 
community, in large measure attributable to the experience and 
expertise resident within our agencies as well as both agencies' long 
history of outreach with state and local subject matter experts 
throughout the Nation. As a matter of current operational practices, 
NIST and DOJ routinely collaborate heavily with state and local 
agencies in the formation of technology and standards development and 
identifying current challenges to forensic science practitioners and 
members of the criminal justice community.
    Although one cannot foresee all possible further contingencies, the 
boots on the ground in both organizations are career professionals and 
both camps are keenly sensitive to the needs of the Nation's forensic 
science community and value the input of state and local stakeholders 
to provide the necessary guidance to inform our day-to-day 
decisionmaking.

                                  <all>

</pre></body></html>
